<html>
<title> - NOMINATION OF INEZ M. TENENBAUM TO BE CHAIRMAN AND COMMISSIONER FOR THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[Senate Hearing 111-446]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-446

                 NOMINATION OF INEZ M. TENENBAUM TO BE
                   CHAIRMAN AND COMMISSIONER FOR THE
                   CONSUMER PRODUCT SAFETY COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
52-754 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 16, 2009....................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator DeMint......................................     3
Statement of Senator Hutchison...................................    24
Statement of Senator Lautenberg..................................    26
    Prepared statement...........................................    28
Statement of Senator Boxer.......................................    29
Statement of Senator Warner......................................    30
Statement of Senator Isakson.....................................    33
Statement of Senator Klobuchar...................................    34
Statement of Senator Vitter......................................    36
Statement of Senator Cantwell....................................    39
Statement of Senator McCaskill...................................    41

                               Witnesses

Hon. Lindsey Graham, U.S. Senator from South Carolina............     2
Inez M. Tenenbaum, Chairman/Commissioner-Designate, U.S. Consumer 
  Product Safety Commission......................................     4
    Prepared statement...........................................     5
    Biographical information.....................................     7

                                Appendix

Hon. John Thune, U.S. Senator from South Dakota, prepared 
  statement......................................................    45
Response to written questions submitted to Inez M. Tenenbaum by:
    Hon. John D. Rockefeller IV on behalf of Hon. Chris Dodd.....    45
    Hon. Frank R. Lautenberg.....................................    46
    Hon. Mark L. Pryor...........................................    46
    Hon. Tom Udall...............................................    47
    Hon. Mark Warner.............................................    48
    Hon. Olympia J. Snowe........................................    49
    Hon. John Thune..............................................    50
    Hon. Roger Wicker............................................    51
    Hon. David Vitter............................................    52

 
NOMINATION OF INEZ M. TENENBAUM TO BE CHAIRMAN AND COMMISSIONER FOR THE 
                   CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:36 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark L. 
Pryor, presiding.

           OPENING STATEMENT OF HON. MARK L. PRYOR, 
                   U.S. SENATOR FROM ARIZONA

    Senator Pryor. I'll go ahead and call us to order, here. I 
want to thank Ms. Tenenbaum for being here, and I also want to 
thank Senator Rockefeller for asking me to chair this today.
    We are on a relatively tight timeframe because we have a 
vote scheduled on the Senate floor at 11:45 a.m., so what I'd 
propose, with my colleagues' indulgence, is that I'll do a very 
brief opening statement. Senator Hutchison is on her way, but 
she wanted me to go ahead and start. If she wants to do an 
opening statement, that'd be great, and then I'll introduce our 
introducers, and then we'll let the nominee speak. And then 
we'll try to keep our questions to 5 minutes, if at all 
possible, because we'll try to move through these.
    We understand there are several Senators on the way, but 
they've encouraged me to get started, given our timeframe this 
morning.
    I'm very delighted to have Ms. Tenenbaum here. She is a 
real breath of fresh air. I'm glad that the White House saw fit 
to nominate her. I knew that we were in pretty good shape when, 
the day she was announced, we had several consumer groups, as 
well as several business groups, come out in support of her. 
She also has the encouragement and support of her two home-
State Senators, and we all know--on this Committee, we 
understand the trials and tribulations of the CPSC over the 
last few years. I think--just in layman's terms, what has 
happened is, the CPSC has had its budget cut, and its resources 
dwindled as its challenges have increased. And when we saw this 
huge influx of products that were manufactured overseas, most 
notably China, but from a lot of places overseas, the CPSC 
just, quite frankly, was not able to keep pace with that and 
was overwhelmed.
    We've been working on this over the last couple years in 
this Committee. We were able to pass a bill last year. It 
passed overwhelmingly, went through both houses, and went 
through conference. Unfortunately, since that bill was passed, 
there has been a lot of controversy about the implementation of 
that. And so, most of that's been resolved at this point. There 
are still a few outstanding issues.
    So, Ms. Tenenbaum, assuming that she is confirmed, which I 
don't think there's any question about that at this point, 
based on what I know, she will inherit a lot of things that she 
has to get in order, and things to fix, and we are very 
delighted that you're here.
    So, until Senator Hutchison gets here, if I may, what I may 
do is introduce Senator Lindsey Graham of South Carolina for a 
statement.
    Welcome to the Committee.

               STATEMENT OF HON. LINDSEY GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Well, thank you, Mr. Chairman, I'm honored 
to be here.
    It's a big honor for all of the people in South Carolina to 
have Inez nominated for such an important job. And I call her 
``Inez'' because everybody that knows her feels very 
comfortable with her as a person. She is an enormously talented 
person. I'd like to thank President Obama for nominating her.
    As you indicated, this is an area where you can make news 
quickly. The Chairman of the Consumer Product Safety Commission 
really holds a public trust, and I can assure you that the 
American consumer and their families are going to be in good 
hands with Inez at the helm of this very important public-
safety institution.
    She has a background that is just, I think, perfect for the 
job. She was our Superintendent of Education from 1996--excuse 
me, from 1998 to 2007. We had the fastest advancement of any 
State in the Nation, in terms of national testing among our 
student population, and that was a real desire of hers, to make 
sure that our students improved. And they did. And at the end 
of her tenure, our State was recognized as having the most 
rigorous academic standards, assessment, and accountability 
system in the Nation. And I think that's important for this 
job.
    You know, in education you can devise a test for the 
teachers, or for the students, and a lot of people, you know, 
make sure that everybody does well on the test. Inez took a 
different path. She produced, I think, the most challenging 
test in the Nation to evaluate our students, and the goal is to 
bring out the best in the students of South Carolina. And she's 
going to do the same thing here.
    Rigor will be applied to the products coming online that 
will be put into the free market, and I just could not think of 
a better person with the executive experience. She has been a 
tireless advocate for children all of her life. She's an 
environmental lawyer. She has dealt with toxic-waste issues. 
She has, like I say, been around politics most of my life, and 
is the type of person that--Sam's life too--she's the type of 
person that everybody, whether you agree with her or not, 
respects, and this is a job where the American consumer needs 
to understand that they have somebody on their side.
    The only blemish on her record I can see is that she has a 
Bachelor of Science and a Master's from the University of 
Georgia. But----
    [Laughter.]
    Senator Graham.--a Law Degree from South Carolina kind of 
neutralized that.
    But, all joking aside, I remember what last year was like, 
what this Committee went through, and Inez Tenenbaum has the 
exact experience we need and, more than anything else, the 
heart for what we need here. She will look out for the American 
public, and she will give the American people the leadership 
they deserve. And this organization that protects us all will 
be in good hands. And I recommend her to this Committee.
    And on behalf of all South Carolinians, thank you for 
holding this hearing so quickly. I look forward to having her 
confirmed soon.
    Senator Pryor. Thank you, Senator Graham.
    Senator DeMint?

          STATEMENT OF STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. And I, too, thank 
you for expediting this hearing.
    My only reservation in endorsing Inez is that that 
endorsement might hurt her with this Committee, so I hope 
that----
    [Laughter.]
    Senator DeMint.--I hope that you'll overlook that.
    We are very proud that she is representing South Carolina. 
She has been an advocate for children. She has practiced 
environmental law, and public-interest law. She is a serious 
nominee for this position, who has dealt with all of the issues 
in a large, controversial, public agency in South Carolina, and 
did that with professionalism and style.
    And, as some of you know, she and I were in a hard-fought 
race for the Senate in 2004, and I was very excited to hear 
about the nomination. And my support means that I hope she 
won't run against me again.
    [Laughter.]
    Senator DeMint. But, we are delighted, and I know this 
Committee has had a chance to meet her. There's absolutely no 
reason that we can't move her through in a hurry, and put her 
at the helm of this agency, which as the Chairman has pointed 
out, has a lot of challenges. We have increased the budget 
significantly. There'll be a lot of people hired. And there's 
probably no one better qualified to manage all of this than 
Inez Tenenbaum.
    So, I definitely support her, and look forward to her 
confirmation.
    Senator Pryor. Thank you, Senator DeMint. And we understand 
that, at some point, you may join us here on the Committee.
    Senator DeMint. Right.
    Senator Pryor. We'd love to have that.
    Senator Graham, you're certainly welcome to stick around, 
but we understand you have a very heavy schedule.
    Senator Hutchison has joined us.
    Would you like to say anything before we turn it over to 
our one and only witness today?
    Senator Hutchison. No, Mr. Chairman, I'd like to hear from 
her, and then I will incorporate my opening statement into my 
questions.
    Thank you very much.
    Senator Pryor. Thank you.
    Inez Tenenbaum, you come very highly recommended. We 
appreciate your interest in public service and your willingness 
to take on this agency and all its very, very important tasks 
and responsibilities. And we would be delighted to hear your 
opening statement.

                 STATEMENT OF INEZ M. TENENBAUM

                CHAIRMAN/COMMISSIONER-DESIGNATE

            U.S. CONSUMER PRODUCT SAFETY COMMISSION

    Ms. Tenenbaum. Good morning, Mr. Chairman, Ranking Member 
Hutchison, and Members of the Senate Commerce, Science, and 
Transportation Committee.
    First of all, I want to say thank you to my two Senators, 
Jim DeMint and Lindsey Graham. It's an honor to have both of 
the Senators from my State support me, and I appreciate so much 
your being willing to step forward and endorse me to this 
Committee.
    And I'm honored by President Barack Obama's nomination of 
me to serve as the Chairman of the United States Consumer 
Product Safety Commission. I thank the President for this 
tremendous opportunity, and if confirmed by the Senate, I will 
do my utmost to ensure the safety and the well-being of 
America's children and families.
    I want to introduce my husband, Samuel. He and I have just 
celebrated our 25th wedding anniversary. And I thank him for 
his support and his encouragement during this nomination 
process.
    Both Samuel and I were raised in Georgia. He is from 
Savannah, and I am from a small town called Pineview. My 
mother, Bernice Rhodes Moore, was an elementary schoolteacher, 
and my father, William Robert Moore, had a career in the United 
States Navy.
    Consistent with President Obama's approach to governance, 
if confirmed as Chairman, I will ensure that the Commission is 
operated in an open, transparent, and a collaborative way, and 
in a manner worthy of the American people. As the new Chairman, 
I will reassure America's families that their government can 
and will protect them from unknown and unforeseeable dangers in 
the products that they use. While emphasizing the lifesaving 
mission of the Commission, I will also ensure that industry 
knows that their views will be heard and seriously considered.
    I want to assure you that if I'm confirmed as the Chairman 
of the Consumer Product Safety Commission, I will be a partner 
with all of you in protecting the lives and the health of the 
children in our country.
    My life's mission has been enhancing the quality of life 
for children and families in South Carolina. This mission has 
remained constant, though I've worked in different venues and 
on many different issues affecting the safety, the health, and 
the well-being of the children in my state.
    From 1999 to 2007, I served as South Carolina's State 
Superintendent of Education, and directed and managed a State 
agency of nearly 1,000 employees. The Department of Education 
was a partner with the State's 85 school districts in 
implementing legislation and policy that was passed by the 
South Carolina General Assembly. Prior to being elected State 
Superintendent of Education, I worked in various capacities: an 
advocate for children and families, a public schoolteacher, 
licensing Head Starts, research director of a legislative 
committee, and an attorney in a private practice.
    As an attorney, I practiced in the area of health, 
environmental law, and public safety. During this time, I 
served as the Chairman of the Environmental and Natural 
Resources section of the South Carolina Bar.
    Before going into private practice, I was the director of a 
committee of the South Carolina House of Representatives, and, 
interestingly enough, that committee reported out the first 
South Carolina Lead Poisoning Prevention and Control Act. The 
Committee also passed the Drug Product Selection Act, the 
Hazardous Waste Management Act, and had responsibility for 
issues relating to public health and safety.
    I'm well aware that, if confirmed by the Senate, that I 
would assume the Chairmanship of an agency that is faced with 
many challenges. And I want to ensure you that I will work 
collaboratively with the other commissioners at the Commission, 
as well as with you, to ensure that the Consumer Product Safety 
Improvement Act of 2008 is implemented in a timely and 
effective manner.
    Those conclude my remarks this morning, Mr. Chairman. If 
confirmed, I will work with you in a full partnership to 
implement the laws that you pass, and I thank you for your 
attention today and for your full and fair consideration of my 
nomination. I would be happy to answer any questions.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Tenenbaum follows:]

    Prepared Statement of Inez M. Tenenbaum, Chairman/Commissioner-
           Designate, U.S. Consumer Product Safety Commission
    Good afternoon, Mr. Chairman, Ranking Member Hutchison, and Members 
of the Senate Commerce, Science, and Transportation Committee.
    I am honored by President Barack Obama's nomination of me to serve 
as Chairman of the United States Consumer Product Safety Commission. I 
thank the President for this tremendous opportunity and, if confirmed 
by the Senate, I will do my utmost to ensure the safety and well being 
of America's children and families.
    I want to introduce to you my husband, Samuel. He and I recently 
celebrated our twenty-fifth wedding anniversary, and I thank him for 
his support and encouragement during this nomination process.
    Both Samuel and I were born and raised in Georgia--he in Savannah 
and I in a small, rural town called Pineview. My mother, Bernice Rhodes 
Moore, was an elementary school teacher and my father, William Robert 
Moore, had a career in the United States Navy.
    Consistent with President Obama's approach to governance, if 
confirmed as Chairman, I will ensure that the Commission is operated in 
an open, transparent, and collaborative way and in a manner worthy of 
the American people. As the new Chairman, I will reassure America's 
families that their government can and will protect them from unknown 
or unforeseen dangers in the products they use. While emphasizing the 
life-saving mission of the Commission, I will also ensure that the 
industry knows that their views will be heard and considered.
    I want to assure you that as Chairman of the Consumer Product 
Safety Commission, I will be a partner with all of you in protecting 
the lives and health of our citizens.
    My life's mission has been enhancing the quality of life for 
children and families in South Carolina. This mission has remained 
constant although I have worked in different venues and on many issues 
affecting the safety, health, and well-being of the children and 
families of my state. Indeed, my public service will be the foundation 
for my work protecting and working for the American people--alongside 
all of you.
    My first employment in South Carolina was with the State Department 
of Social Services, after I had taught elementary school for several 
years in my native state of Georgia. My responsibilities at the State 
Department of Social Services involved licensing Head Start and other 
federally-funded childcare centers to ensure that the facilities 
protected the health and safety of children. I also represented the 
State Department of Social Services before committees in the South 
Carolina General Assembly to advocate for the passage of new 
legislation to increase the health, safety, and fire standards for 
childcare facilities and family and group childcare homes.
    I then worked as the Director of Research for the Medical, 
Military, Public and Municipal Affairs Committee of the South Carolina 
House of Representatives. This Committee was responsible for developing 
legislation and approving regulations relating to health, human 
services, the environment, children and youth services, mental health, 
mental retardation, adult and juvenile correctional facilities, local 
government, and the state's National Guard.
    It was through my work for this Committee that I first became 
knowledgeable about consumer advocacy and safety. Examples of 
legislation and regulations that I reviewed for the Committee included 
the Lead Poisoning Prevention and Control Act, the Hazardous Waste 
Management Act, the Pollution Control Act, and the Drug Product 
Selection Act. Examples of regulatory issues reviewed annually by the 
Committee included controlled substances; food products; air, water, 
and soil pollution; asbestos; barrier free design; restaurant 
sanitation; and pyrotechnic safety.
    During my tenure as Director of Research, I also served on numerous 
ad hoc committees to study issues for the General Assembly. I served on 
the state's first Hazardous Waste Advisory Committee to work out issues 
between the Department of Health and Environmental Control, advocates 
for the environment, and the business/industry community. This work 
lead to the passage of South Carolina's first hazardous waste 
management regulations.
    From 1986 to 1992, I practiced law with Sinkler & Boyd, P.A. and 
worked in the areas of health, environmental, and public interest law. 
During this time, I served as the Chair of the Environmental and 
Natural Resources Section of the South Carolina Bar Association. My 
work in the environmental area included the regulation of underground 
storage tanks, the cleanup of property contaminated by hazardous waste, 
and the potential environmental hazards associated with real estate 
loans.
    From 1999 to 2007, I served as South Carolina's State 
Superintendent of Education and directed and managed a state agency of 
nearly 1,000 employees. The agency was responsible for administering 
Federal and state education programs; providing training and technical 
assistance to educators in the state's public schools; certifying 
teachers and other educators; approving architectural and construction 
plans for school buildings; operating a statewide school and 
transportation system; overseeing a statewide meals program; and 
leading initiatives to maintain safe and healthy schools.
    I believe that my work as a child advocate, an educator, an 
environmental lawyer, and a public servant has prepared me well to 
chair the Consumer Product Safety Commission. And I am well aware that 
I would assume the Chairmanship of an agency that is faced with 
challenges.
    Some of these challenges include implementing in a timely manner 
the Consumer Product Safety Improvement Act of 2008, ensuring the 
safety of the surge of imports from countries that do not adequately 
regulate the safety of their manufactured goods, and accrediting a 
worldwide network of third-party laboratories to certify the safety of 
consumer goods globally.
    If confirmed, I will make the implementation of the Consumer 
Product Safety Improvement Act of 2008 my highest priority. I pledge to 
regularly inform this Committee and Congress about our progress, and to 
work with you in an effort to meet the statutory deadlines and avoid 
unnecessary delays.
    Regular and timely public communication is critical to keeping the 
public informed about consumer product safety. The Act recognizes this 
by requiring the Commission to establish a publicly available, 
searchable, Internet-accessible Consumer Product Safety Database that 
will allow consumers the opportunity to provide the Commission with 
information on possible defective products. As I understand it, the 
National Highway Traffic Safety Administration already has a similar 
model database on automobile safety that is accessible through its 
website. If confirmed as Chairman of the Commission, I will oversee the 
implementation of this database to make certain that it is created in a 
timely fashion and is easily accessible by the public.
    Accrediting a worldwide network of third-party laboratories 
responsible for certifying that a children's product complies with U.S. 
safety standards will increase the enforcement abilities of the 
Commission. When the CPSC began operations in 1973, most consumer 
products were manufactured in the United States. From 1997 to 2007, 
imports increased over 200 percent and currently two-thirds of all U.S. 
consumer product recalls are of imported products. The vast majority of 
the recalled imports are from China. Through accreditation and 
continually monitoring third-party laboratories, the CPSC can 
significantly increase surveillance of imported products.
    In addition, through additional funding appropriated by Congress 
and the passage of the Consumer Product Safety Improvement Act, more 
resources are now available to monitor the certification of imports, 
hire more inspectors at the ports, and work collaboratively with the 
Customs Service on dangerous imports. I am also optimistic that the 
CPSC can increase the number of memorandum of agreements with countries 
that send imports to the United States and provide more training for 
domestic and foreign manufactures to guarantee compliance with the 
Commission's rules and regulations.
    In closing, I want to assure you as Chairman of the Consumer 
Product Safety Commission, I will be a partner with all of you in 
protecting the lives and health of our citizens. I want to work with 
you to improve the operations of the Commission and to ensure that both 
our domestic and foreign manufacturers are fully informed on how to 
meet the requirements of the Consumer Product Safety Improvement Act 
and other statutes enforced by the Commission. If confirmed, I commit 
to you that under my leadership the Commission will operate in an open, 
fair, and evenhanded manner and will invite participation by the 
public, consumer advocacy organizations, and industry.
    Thank you for your attention today, and for your full and fair 
consideration of my nomination. I would be happy to answer any 
questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Inez Moore Tenenbaum (1984-present).

        Margaret Inez Moore (maiden) (1951-1971; 1975-1984).

        Inez Moore Lindeman (former marriage 1971-75).

    2. Position to which nominated: Chair, Consumer Product Safety 
Commission.
    3. Date of Nomination: June 9, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not available to the public.
        Office: McNair Law Firm, PA; 1301 Gervais Street; Columbia, SC 
        29201.

    5. Date and Place of Birth: March 8, 1951; Hawkinsville, Georgia.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Samuel Jay Tenenbaum (spouse); retired from family steel 
        business; no children or stepchildren.

    7. List all college and graduate degrees. Provide year and school 
attended.

        BS, University of Georgia (1972).

        MEd, University of Georgia (1974).

        JD, University of South Carolina (1986).

    8. List all post-undergraduate employment, and highlight all 
management- level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Special counsel, McNair Law Firm, PA; Columbia, SC (7/2008-
        present).

        Education consultant, MetaMetrics Inc., Durham, NC (7/2007-3/
        2009).

        Education consultant, Southwest Educational Development 
        Laboratory, Austin, TX (3/2008-5/2009).

        Consultant, Columbia College, Columbia, SC (2/2007-11/2007).

        South Carolina State Superintendent of Education (1999-2007), 
        Columbia, SC.

    The State Superintendent of Education is a constitutional officer 
who is responsible for the daily operations of the State Department of 
Education and who serves as secretary to the State Board of Education. 
I directed and managed the State Department, which employed 
approximately 1,000 employees, administered annual Federal and state 
appropriations for education, and implemented Federal and state 
statutes and regulations pertaining to education. The agency also 
administers numerous statewide systems for the state's eighty-five 
school districts, including student transportation and food services, 
programs for safe and healthy schools, selection and distribution of 
textbooks and instructional materials, creation and establishment of 
academic standards, assessment of student achievement, educator 
certification and professional development, data collection and 
analysis, and education research.

        President and Founder, SC Center for Family Policy, 911 Lady 
        Street, Columbia, SC (1992-1993; 1994-1997).

        Attorney, Sinkler & Boyd, P.A. (1986-92) Columbia, SC.

    I practiced in the areas of environmental, health, and public 
interest law and served as Chair of the Environmental and Natural 
Resources Section of the South Carolina Bar.

        Law Clerk, McNair Law Firm, (1/1984-8/1984).

        Director of Research and Administration for the Medical, 
        Military, Public, and Municipal Affairs Committee; South 
        Carolina House of Representatives (1977-83).

    I directed research and committee operations. The committee was 
responsible for issues relating to public health and safety, the 
environment, aging, human services, juvenile justice, child welfare, 
mental health, mental retardation, social services, adult correctional 
facilities, foster care, local government, and the state guard. I also 
served on several ad hoc committees during this time, including the 
committee that developed the state's first hazardous waste management 
and disposal regulations.

        Licensing Specialist, Office of Child Development, South 
        Carolina Department of Social Services (1975-77); Columbia, SC.

    I licensed Head Start Centers and federally-fiinded child care 
centers and served as legislative liaison to the South Carolina General 
Assembly on legislation to improve conditions in child care centers and 
group/family child care homes.

        First Grade Teacher, John Milledge Elementary School, Augusta, 
        GA (1974-75).

        Elementary School Teacher, Colbert Elementary School, Colbert, 
        GA (1972-74).

    9. Attach a copy of your resume. See Attachment A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Board member, International African American Museum, 75 Calhoun 
        Street, Charleston, SC 29401 (2006 to May 2009) affiliated with 
        the City of Charleston.

        Board of Trustees, University of South Carolina, Columbia, SC 
        29208 (1999-2007).

        Board of Trustees, SC Educational Television Commission, 1001 
        George Rogers Boulevard, Columbia, SC 29211 (1999-2007).

        Board of Trustees, The Citadel, 171 Moultrie Street, 
        Charleston, SC 29409 (1999-2007).

        Board member, South Carolina Governor's School for the Arts 
        Foundation, (2007 to May 2009).

        Advisory Board, Dalton and Linda Floyd Family Mentoring 
        Program, Coastal Carolina University, Conway, SC (2008 to May 
        2009).

        Leadership Council, Robert E. McNair Center, Francis Marion 
        University, Florence, SC (2008 to May 2009).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Education consultant, MetaMetrics Inc., Durham, NC (7/2007-3/
        2009).

        Education consultant, Southwest Educational Development 
        Laboratory, Austin, TX (3/2008-5/2009).

        Consultant, Columbia College, Columbia, SC (2/2007-11/2007).

        Advisory Board, Trust of James Brown, 212 Newberry Street, 
        Aiken, SC 29801 (11/2007-5/2009).

        Board member, Washington Street United Methodist Church 
        Foundation, 1401 Washington Street, Columbia, SC 29201 (1/2007-
        5/2009).

        Board member, State Chamber of Commerce, 1201 Main Street, 
        Columbia, SC 29201 (1/2005-12/2006).

        Board member, Capital City Club, 1201 Main Street, Columbia, SC 
        29201 
        (1/2001-12/2008).

        Board member, Allen University, 1530 Harden Street, Columbia, 
        SC 29204 
        (1/1996-1/2007).

        Board member, International African American Museum, 75 Calhoun 
        Street, Charleston, SC 29401 (3/2007-5/2009).

        Board of Trustees, University of South Carolina, Columbia, SC 
        29208 
        (1/1999-1/2007).

        Board of Trustees, SC Educational Television Commission, 1001 
        George Rogers Boulevard, Columbia, SC 29211 (1/1999-1/2007).

        Board of Trustees, The Citadel, 171 Moultrie Street, 
        Charleston, SC 29409 (1/1999-1/2007).

        Board member, South Carolina Governor's School for the Arts 
        Foundation, 700 E. North Street, Suite 11, Greenville, SC 29601 
        (1/2007-5/2009).

        National Institute for Excellence in Teaching, 1250 Fourth 
        Street, Santa Monica, CA (1/2007-5/2009).

        Southern Regional Education Board, 592 10th Street NW, Atlanta, 
        GA 30318 (2/1999-5/2009).

        Advisory Board, Dalton and Linda Floyd Family Mentoring 
        Program, Coastal Carolina University, Conway, SC (1/2008-5/
        2009).

        Advisory Board for Columbia, South Carolina. Knight Foundation, 
        200 S. Biscayne Blvd., Miami, FL (1/2008-5/2009).

        Leadership Council, Robert E. McNair Center, Francis Marion 
        University, Florence, SC (6/2008-5/2009).

        Cliff Ridge Colony Homeowners Association Activity Committee, 
        104 Cliff Ridge Drive, Cleveland, SC 29635 (5/2007-5/2009).

        Cliff Ridge Colony Homeowners Association Architectural Review 
        Committee, 104 Cliff Ridge Drive, Cleveland, SC 29635 (5/2008-
        5/2009).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Capital City Club, 1201 Main Street, Columbia, SC 29201 
        (1988 to present).

        Member, Summit Club, 1301 Gervais Street, 20th FL, Columbia, SC 
        29201 (1984 to present).

        Member, the Council of Chief State School Officers, Washington, 
        D.C. (1999-2007).

        Member, South Carolina Bar Association, member since November 
        1986.

        Member, United States District Court, District of South 
        Carolina, member since January 1987.

        Member, United States Court of Appeals for the Fourth Circuit, 
        since January 1987.

        Member, South Carolina Women Lawyers Association--joined in 
        1994.

        Board member, Washington Street United Methodist Church 
        Foundation, 1401 Washington Street, Columbia, SC 29201 (2007 to 
        May 2009).

        Member, Washington Street United Methodist Church, 1401 
        Washington Street, Columbia, SC 29201--joined 1976.

        Life Member, Hadassah. (I have been a life time member for over 
        10 years, but cannot say with certainty the year that I 
        joined.)

        Life member, University of Georgia Alumni Association, 2007 to 
        present.

        Member, University of South Carolina Alumni Association, 1986 
        to present.

        Member, South Carolina Association of School Administrators, 
        (1999-2007).

        Junior League of Columbia Community Advisory Board (2002-2004).

        Member, South Carolina Democratic Party, 1976 to present.

    The United Methodist Church generally expects members to accept the 
religious precepts of the church, but otherwise none of these 
organizations restricts membership on the basis of sex, race, color, 
religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        1994--Candidate for SC Lt. Governor in Democratic Primary. No 
        outstanding debt.

        1998--Candidate for and elected to be SC State Superintendent 
        of Education. No outstanding debt.

        2002--Candidate for and elected to be SC State Superintendent 
        of Education. No outstanding debt.

        2004--Candidate for U.S. Senate. No outstanding debt.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    See Attachment B for a list of political contributions and services 
rendered to campaigns as a volunteer.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Honorary Degrees

        Doctor of Humane Letters, Lander University, 2007.

        Doctor of Laws, South Carolina State University, 2005.

        Doctor of Laws, Newberry College, 2004.

        Doctor of Humanities, Francis Marion University, 2003.

        Doctor of Humane Letters, Southern Wesleyan University, 2003.

        Doctor of Humane Letters, Winthrop University, 2003.

        Doctor of Education, The Citadel, 2002.

        Doctor of Humanities, Furman University, 2002.

        Doctor of Laws, Columbia College, 2001.

        Awards and Recognition

        Israel's Star of David Award, Israel Bonds, 2009.

        Community Service Award, Cooperative Ministries, 2008.

        Honorary Member, Order of the Coif, South Carolina University 
        School of Law, 2008.

        Woman of Achievement Award, South Carolina Commission on Women, 
        2007.

        Order of the Palmetto presented by Governor Mark Sanford, 2006.

        Richard Young Award for Education, Allen University, 2006.

        J. Waites Waring Humanitarian Award, United Black Fund of the 
        Midlands, 2005.

        Distinguished Public Service Award, Delta Kappa Gamma Society 
        International, Alpha Eta State, 2005.

        Award of Achievement, Spartanburg Technical College, Women's 
        History Month, 2005.

        Program Partnership Award, South Carolina Vocational 
        Rehabilitation Association, 2004.

        Friend of Gifted Education, South Carolina Council of Gifted 
        Education, 2003.

        Distinguished Service Award, Greater Columbia Community 
        Relations Council, 2002.

        Citation for Vision and Commitment to Educational Excellence, 
        South Carolina Governor's School for the Arts and Humanities, 
        2002.

        Whitney M. Young Award, Boy Scouts of America, Indian Waters 
        Council, 2001.

        Distinguished Alumni Award, North Carolina Center for Creative 
        Leadership, 2001.

        Compleat Lawyer Award, University of South Carolina School of 
        Law, 2000.

        Partner in Progress Award, Southern Association of Colleges and 
        Schools, 2000.

        Friend of Reading, South Carolina Reading Recovery Association, 
        1999.

        Woman of Distinction, Congaree Girl Scouts, 1999.

        John Bolt Culbertson Civil Libertarian of the Year Award, 
        American Civil Liberties Union, 1989.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        2008

        Inez Tenenbaum, Tunky Riley's Quiet Leadership, The State, 
        March 15, 2008, at A11.

        2007

        Inez Tenenbaum and Barbara S. Neilson, Presidential Candidates 
        Must Address Education, The State, May 1, 2007, at A7.

        Inez Tenenbaum, A legacy of joy, honor, and accomplishment as 
        your State Superintendent. South Carolina Department of 
        Education Website.

        See http://ed.sc.gov/agency/superintendent/former/inez/
        messages/index.html for other messages from Inez Tenenbaum from 
        2005-2007.

        2006

        Inez Tenenbaum, Dedication, Hard Work Needed to Continue School 
        Improvements, article sent to South Carolina newspapers, 2006.

        Inez Tenenbaum, Preparing Students to Compete in a Global 
        Economy, article sent to South Carolina newspapers, 2006.

        Inez Tenenbaum, Improving Graduation Rate a Top Priority, 
        article sent to South Carolina newspapers, 2006.

        Inez Tenenbaum, The State of Education: Commitment. We Must 
        Keep Building on Our Successes, Spartanburg Herald-Journal, 
        April 9, 2006, at A13.

        Inez Tenenbaum, Diploma Deficiency: An Essential Priority: 
        State is Committed to Strategies to Raise Graduation Rate, 
        Spartanburg Herald-Journal, August 13, 2006, at A13.

        Inez Tenenbaum, School Report Card Results Should be a Call to 
        Action for South Carolina, The Rock Hill Herald, November 18, 
        2006, at 5A.

        Inez Tenenbaum, Many Things to Appreciate in House Budget, S.C. 
        Dept. of Education Website, Message from Inez Tenenbaum, March 
        30, 2006.

        Inez Tenenbaum, Education Oversight Committee Calls for 
        Expanded 4K Programs, S.C. Dept. of Education Website, Message 
        from Inez Tenenbaum, March 17, 2006.

        Inez Tenenbaum, Year Ends With Accolades for Performance, 
        Standards, S.C. Dept. of Education Website, Message from Inez 
        Tenenbaum, June 20, 2006.

        Inez Tenenbaum, The Challenge of Our High Standards, The State, 
        November 19, 2006, at D3.

        2005

        Inez Tenenbaum, Already Successful Palmetto Achievement 
        Challenge Test (PACT), The State, June 24, 2005 at A11.

        Inez Tenenbaum, South Carolina Leading the Nation in Education 
        Improvements, sent to South Carolina newspapers, 2005.

        Inez Tenenbaum, Defeat for Voucher Plan a Boost for Public 
        Education, sent to South Carolina newspapers, 2005.

        Inez Tenenbaum, Childhood Health and Academics Closely Aligned, 
        Palmetto Health publication, 2005.

        Inez Tenenbaum, Schools that Receive Public Funds Should be 
        Accountable to the Public for Producing Results, sent to South 
        Carolina newspapers, 2005.

        Inez Tenenbaum, Making the PACT [Palmetto Achievement Challenge 
        Test] System More Useful, SC Department of Education Website, A 
        Message to Educators from Inez Tenenbaum, May 26, 2005.

        Inez Tenenbaum, State of the Schools 2005--An Open Letter to 
        the People of South Carolina, June 2005.

        Inez Tenenbaum, Private School Vouchers Threaten South 
        Carolina's Education Progress, SC Dept. of Education Website, A 
        Message to Educators from Inez Tenenbaum, March 9, 2005.

        Inez Tenenbaum, Misleading Tactics Employed by Tax Credit 
        Advocates, Bluffton Today, May 9, 2005, at 13.

        Inez Tenenbaum, ``Bump in the Road'' No Reason to Abandon 
        Accountability, sent to South Carolina Friends of Education, 
        November 10, 2005.

        Inez Tenenbaum, SAT Scores Confirm: South Carolina Should Stay 
        the Course in Education, article sent to South Carolina 
        newspapers, 2005.

        Inez Tenenbaum, Downplaying School Improvements Will Never Lead 
        the Way to Success, article sent to South Carolina newspapers, 
        2005.

        2004

        Inez Tenenbaum, Relief Tax Cuts for our Middle Class, Trade Are 
        Key Elements, Spartanburg Herald-Journal, October 10, 2004, at 
        A13.

        Inez Tenenbaum, SAT Dip Can't Tarnish Improvement, Carolina 
        Morning News, September 2, 2004, at 2.

        Inez Tenenbaum, Middle Class Needs to be Protected, The State, 
        August 22, 2004, at D3.

        Inez Tenenbaum, Washington Must Develop Some New Incentives to 
        Create Jobs Here at Home, Spartanburg Herald-Journal, May 30, 
        2004, at A13.

        Inez Tenenbaum, Discipline on Trade Needed to Protect South 
        Carolina Jobs, The State, May 11, 2004, at A9.

        Inez Tenenbaum, Put American Jobs First, Charlotte Observer, 
        February 29, 2004, at 6Y.

        Inez Tenenbaum, Year of School Improvements Despite Drain on 
        Resources, Carolina Morning News, January 7, 2004, at 2.

        Inez Tenenbaum, South Carolina Tackles Truancy, Carolina Youth 
        Alliance publication, Spring/Summer 2004, at 4.

        Inez Tenenbaum, A Cleaner South Carolina Should Start in the 
        Classroom, sent to South Carolina newspapers, 2004.

        2003

        Inez Tenenbaum, 3-Point SAT Dip Can't Tarnish 32-point 
        Improvement by Students and Teachers, article sent to South 
        Carolina newspapers, 2003.

        Inez Tenenbaum, Wide Disparity in Results Shows Need for 
        Uniform Standards, Carolina Morning News, September 28, 2003 at 
        2.

        Inez Tenenbaum, Results Shows Needs for Uniform Standards, The 
        State, September 27, 2003, at A11.

        Inez Tenenbaum, Editorial Misses the Mark on State Education 
        System's Current Budget Crisis, The Spartanburg Herald-Journal, 
        April 27, 2003, at A13.

        Inez Tenenbaum, Budget Cuts Put Improvements at Risk, The 
        Carolina Morning News, February 23, 2003, at 2.

        Inez Tenenbaum, We Must Answer Our Challenges with Courage, 
        Palmetto Administrator magazine, February 10, 2003.

        Inez Tenenbaum, National Test Scores Show Positive Trends for 
        South Carolina Schools, article sent to South Carolina 
        newspapers, 2003.

        2002

        Inez Tenenbaum, Reflection on First Term as State 
        Superintendent of Education, Palmetto Administrator magazine, 
        August 5, 2002.

        Inez Tenenbaum, Service-Learning Teaches Academics While 
        Strengthening Communities, In Our Schools, a publication of the 
        South Carolina Department of Education, Vol. 2, No. 2, 2002

        Inez Tenenbaum, Message to South Carolina Voyager Readers, 
        Voyager magazine, 2002.

        Inez Tenenbaum, Article on South Carolina's educational 
        initiatives for IMPACT, Junior League of Columbia, August 20, 
        2002.

        Inez Tenenbaum, Continuing Our Progress, The State, October 9, 
        2002, at A13.

        Inez Tenenbaum, Article on South Carolina's school report 
        cards, Palmetto Administrator magazine, November 11, 2002.

        Inez Tenenbaum, Article on Lander University's School of 
        Education, President's Report, Lander University, November 
        2002.

        Inez Tenenbaum, Hard Work Pays Off on SAT, Carolina Morning 
        News, September 1, 2002, at 2.

        Inez Tenenbaum, article on South Carolina's education progress, 
        Carolina Youth Alliance magazine, October 1, 2002.

        Inez Tenenbaum, Teacher Appreciation Day is Everyday, article 
        sent to South Carolina newspapers, 2002.

        2001

        Inez Tenenbaum, School Goals High, but Attainable, The State, 
        December 21, 2001, at A13.

        Inez Tenenbaum, Workforce Readiness Crucial to a Dynamic South 
        Carolina, Magazine for Competitive Manufactures in South 
        Carolina, September 4, 2001.

        Inez Tenenbaum, Business Community's Involvement is Key to 
        Accountability Success, South Carolina Chamber of Commerce and 
        High Performance Partnerships, 2001.

        Inez Tenenbaum, New School Year Brings Excitement, Challenges, 
        sent to South Carolina newspapers, 2001.

        Inez Tenenbaum, School Year Proves that South Carolina 
        Education Can Improve, The State, June 3, 2001, at D3.

        Inez Tenenbaum, National Report Card Provides More Evidence 
        that South Carolina is on the Right Path, article sent to South 
        Carolina newspapers, 2001.

        Inez Tenenbaum, Truancy is the First Sign of Trouble, article 
        sent to South Carolina newspapers, March 2001.

        Inez Tenenbaum, Involvement is the Key to Accountability 
        Success, In Our Schools, a publication by the S.C. Dept. of 
        Education, Vol. 1, No. 1, 2001.

        Inez Tenenbaum, Teacher Pay, Buses, Truancy, and Technology Top 
        the List of New Budget Priorities, In Our Schools, a 
        publication by the S.C. Dept. of Education, Vol. 1, No. 2, 
        2001.

        Inez Tenenbaum, Statewide Focus on School Improvement Produces 
        a Year of Improving Test Scores, In Our Schools, a publication 
        by the S.C. Dept. of Education, Vol. 1, No. 3, 2001.

        2000

        Inez Tenenbaum, SAT Scores Represent Latest Good News About 
        Schools, Carolina Morning News, September 2, 2000, at 5.

        Inez Tenenbaum, Article on Truancy for the South Carolina 
        Center for Family Policy newsletter, October 2000.

        Inez Tenenbaum, Article on the Takeover of Allendale County 
        Schools, Allendale County Newspaper, 2000.

        Inez Tenenbaum, Attorney General Is Wrong about Sex Education 
        Law, sent to South Carolina newspapers, 2000.

        Inez Tenenbaum, Teacher Pay, Buses, Truancy, and Technology Top 
        the List of New Budget Priorities, article sent to South 
        Carolina newspapers, 2000.

        Inez Tenenbaum, Education Reform Requires Comprehensive, 
        Common-Sense Approach, In Our Schools, a publication by the 
        S.C. Depart. of Education, Vol. 1, No. 1, 2000.

        1999

        Inez Tenenbaum, Together, We Can Move Forward and Achieve 
        Excellence, article sent to South Carolina newspapers, 1999.

        Inez Tenenbaum, untitled article on the essential factors 
        necessary for education progress, 1999.

        Inez Tenenbaum, Foundation is in Place for Systemic, Measurable 
        Change. Article distributed by State Department of Education, 
        1999.

        Inez Tenenbaum, This School Year Crucial as We Move into New 
        Century, Article distributed by State Department of Education, 
        1999.

        Inez Tenenbaum, untitled article on parental involvement 
        distributed by the South Carolina Department of Education, 
        1999.

        1997

        Inez Tenenbaum, Success by Six Chair Visits White House, 
        Success by Six, United Way of the Midlands newsletter, March 
        1997.

        Inez Tenenbaum, Research Underlies Importance of Early 
        Education for Children, The State, May 18, 1997.

        1992

        Inez Tenenbaum, The Prochoice Perspective. In the Beginning: 
        Ethical Issues Surrounding the Beginnings of Human Life. 
        Seminar for the Center for Ethical Development, Newberry 
        College, 1992 at 75. Raymond M. Bost, editor.

        Inez Tenenbaum, an article on the prochoice perspective, 
        Candler Hospital Magazine, Savannah, Georgia, 1992.

        1991

        Inez Tenenbaum, Lender Liability and the `Is it Contaminated 
        Property' Marketplace, Seminar for the Natural Resources/Real 
        Estate Practices Section at Mid-year Meeting of the South 
        Carolina Bar, January 25, 1991, at 9.

        1989

        Inez Tenenbaum, Current Legal Issues in Dealing with Problem 
        Loans--Environmental Issues, Sinkler & Boyd, P.A. seminar for 
        the South Carolina Bankers Association, September 26, 1989, at 
        20.

        Inez Tenenbaum, Poll Reveals Voters Attitudes on the Abortion 
        Issue, The State, December 15, 1989, at 23A.

        1985

        Inez Tenenbaum, Majority May Freeze Out Minority Shareholders 
        Provided Compensation is Adequate, Annual Survey of S.C. Law, 
        S.C. Law Review, Vol. 37, Autumn 1985, at 28.

        Inez Tenenbaum, Use of General Obligation Bonds for Industrial 
        Development is Unconstitutional, Annual Survey of S.C. Law, 
        S.C. Law Review, Vol. 37, Autumn 1985, at 47.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been an advocate for children and families throughout my 
career as a public school teacher, state licensing agent for Federal 
child care facilities, research director of a legislative committee, 
attorney, and state superintendent of education. As Director of 
Research for the Medical, Military, Public, and Municipal Affairs 
Committee of the South Carolina House of Representatives, I was 
involved in the passage of statutes and regulations relating to public 
health and safety. Examples of these issues are the South Carolina Lead 
Poisoning Prevention and Control Act, the Drug Product Selection Act, 
and the Hazardous Waste Management Act. The Committee had the 
responsibility for approving regulations promulgated by state agencies 
such as the Department of Health and Environmental Control, the Board 
of Pharmaceutical Examiners, and the State Fire Marshall's office. 
Examples of regulatory topics reviewed annually by the Committee 
included controlled substances; milk and other food products; air, 
water, and soil pollution; asbestos; barrier free design; and 
pyrotechnic safety.
    I have also directed and managed a large agency that has 
responsibility for distributing state and Federal funds to 85 school 
districts. In virtually all of my positions in both the public and 
private sectors, I have been responsible for developing and enforcing 
legislation, regulations, and policy relating to public health, the 
environment, and the safety of children and the general public. I have 
experience in administrative proceedings, regulatory compliance, 
advocacy, and developing policy in the areas of public health, safety, 
education, and food safety.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I will consider it a top priority to ensure that the 
Consumer Product Safety Commission has proper management and accounting 
controls. My experience managing a state education agency that employed 
approximately 1,000 employees and that had the responsibility for 
administering state and Federal education programs and appropriations, 
certifying educators, operating the state's student school 
transportation system, overseeing the school meals programs, reviewing 
and inspecting school construction plans, and coordinating initiatives 
for safe and healthy schools has prepared me to manage the Commission. 
Over the course of my career as a practicing attorney, staff to a state 
legislative committee, and state superintendent of education, I have 
significant experience with the administrative procedures, due process, 
and regulatory compliance issues in both the private and public 
sectors.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The surge of imports of consumer goods from countries that do not 
adequately regulate the safety of their manufactured goods, which puts 
Americans at risk. The sheer volume of imports poses a challenge to the 
inspection capacity of the Consumer Product Safety Commission.
    The lack of resources to hire inspectors, laboratory staff, and 
expand the size of the laboratory/products safety testing facilities. 
This has been a challenge for the Commission as it carries out its 
mandate to protect consumers. The recent increase in financial 
resources for the CPSC that was supported by President Obama and 
Congress will help to ameliorate these challenges.
    Effectively implementing the extensive requirements of the Consumer 
Product Safety Improvement Act of 2008. If confirmed, I will look 
forward to working with Congress, the consumer advocacy groups, and the 
business community on this effort.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    The South Carolina State Retirement System will pay $1,123.33 per 
month to me when I reach 65 years of age. I also hold a 401K account 
with the McNair Law firm, which I will be rolling over to a private 
account if confirmed.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I served as a national surrogate speaker for the Obama Presidential 
Campaign in 2007 and 2008 and was a member of the Campaign's Education 
Policy Advisory Committee and the South Carolina Obama Steering 
Committee. In these roles I was involved in speaking for the campaign 
on issues and working to develop the educational policy for the Obama 
Campaign.
    As South Carolina's State Superintendent of Education for two terms 
(1999-2007), I testified annually on the state's education budget to 
education subcommittees in both the South Carolina House of 
Representatives and the South Carolina Senate. If requested by the 
Committee, I appeared before the House or Senate education committees 
on particular legislation.
    As State Superintendent, I served as secretary to the State Board 
of Education, and worked with the Board on the passage of regulations 
affecting public education.
    6. Explain how you will resolve any potential conflicts of 
interest, including any that may be disclosed by your responses to the 
above items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I was the subject of an ethics complaint to the South Carolina 
Ethics Commission in late 2006 filed by Richard Beltram. It involved 
the Jim Rex for State Superintendent of Education campaign and alleged 
improper use of state employees' e-mail addresses for solicitation of 
campaign contributions. The complaint was dismissed for lack of 
probable cause.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    As State Superintendent of Education, I have been named as a 
defendant in several lawsuits:

        Wall v. SC Board of Education; Civil CA No. 2008-CP-07-2631; 
        Beaufort County Court of Common Pleas. I was named individually 
        and in my official capacity as former State Superintendent of 
        Education. Case is pending.

        Jane Doe v. SC Department of Education; Civil CA No. 2007-CP-
        07-632; Jasper County Court of Common Pleas. I was named 
        individually and in my official capacity as State 
        Superintendent of Education. Case is pending.

        Jane Doe v. SC Department of Education; Civil CA No. 2007-CP-
        07-3125; Beaufort County Court of Common Pleas. I was named as 
        a defendant individually and in my official capacity as former 
        State Superintendent of Education. Case is pending.

        Sloan v. Tenenbaum; SC Supreme Court Memorandum 2008-MO-003. 
        (Heard 12/2007 and when opinion was published the caption was 
        amended to Sloan v. Rex, who is the current State 
        Superintendent of Education). Lower court ruled in favor of 
        State Department of Education and South Carolina Supreme Court 
        affirmed.

        Abbeville v. State of South Carolina, 353 SC 58, 515 S.E.2d 
        535; The State Department of Education, the State Board of 
        Education, and the State Superintendent of Education were 
        dismissed as parties to the suit.

        Appointed Guardian Ad Litem

        Alexander v. McLawhorn, Civil Action No. 3:90-3062-17. I was 
        appointed guardian ad litem for the juveniles incarcerated at 
        the South Carolina Department of Juvenile Justice by Federal 
        District Judge Joseph Anderson in this class action suit. Case 
        was resolved and dismissed on 12/11/2003. I resigned as 
        guardian in 1993.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              attachment a
                     resume of inez moore tenenbaum
Education

        1972: BS, University of Georgia; Athens, Georgia.

        1974: MEd, University of Georgia; Athens, Georgia.

        1986: JD, University of South Carolina School of Law; Columbia, 
        South Carolina; Associate Editor-in-Chief, South Carolina Law 
        Review.
Employment

    2008 to present: Special Counsel, McNair Law Firm, PA.

        Joined McNair Law Firm as special counsel in the area of public 
        school finance.

    2007-2009: Education consultant.

        Provide consultation to the Southwest Educational Development 
        Laboratory (SEDL) and the Southeast Comprehensive Center to 
        build the capacity of state departments of education, school 
        districts and schools in meeting the goals of No Child Left 
        Behind.

        Provide consultation to MetaMetrics, Inc., a North Carolina 
        corporation, developer of the Lexile Framework for Reading.

    1999-2007: South Carolina State Superintendent of Education.

        Elected in 1998 and 2002. The State Superintendent of Education 
        is a constitutional officer who is responsible for the daily 
        operations of the State Department of Education and who serves 
        as secretary to the State Board of Education. The State 
        Department administers annual Federal and state appropriations 
        for education and implements Federal and state statutes and 
        regulations pertaining to education. The agency also 
        administers numerous statewide systems for the eighty-five 
        school districts, including student transportation and food 
        services, programs for safe and healthy schools, selection and 
        distribution of textbooks and instructional materials, creation 
        and establishment of academic standards, assessment of student 
        achievement, educator certification and professional 
        development, data collection and analysis, and education 
        research.

    1992-97: Founder and President; South Carolina Center for Family 
Policy.

        Created center to restructure the state's juvenile justice 
        system, to create community programs designed to prevent 
        juvenile delinquency and to reduce the number of incarcerated 
        youth in state's institutions.

    1986-92: Attorney; Sinkler & Boyd, PA.

        Practiced in the areas of environment, health, and public 
        interest law; appointed by Federal judge Joseph F. Anderson, 
        Jr. as guardian of more than 600 juveniles incarcerated in the 
        state's juvenile facilities in a class action suit based on 
        unconstitutional conditions of confinement at the facilities.

    1977-83: Director of Research and Administration; Medical, 
Military, Public and Municipal Affairs Committee; South Carolina House 
of Representatives.

        Carried out Committee's responsibility for all legislation 
        relating to health, human services, adult and juvenile 
        corrections, state military affairs, local and county 
        government, environment, and aging.

    1975-77: Licensing Specialist, Office of Child Development; South 
Carolina Department of Social Services.

        Carried out process for licensing of Head Start centers and 
        Federal child care centers; served as legislative liaison to 
        the South Carolina General Assembly on legislation to license 
        child care centers.

    1974-75: Faculty Member, John Milledge Elementary School; Augusta, 
GA.

        Taught first grade.

    1972-74: Faculty Member, Colbert Elementary School; Colbert, GA.

        Taught second and fourth grades.
Board and Commission Memberships

        Chairman, Midlands Go Red Event, American Heart Association, 
        2008.

        Board of Directors, South Carolina Governor's School for Arts 
        and Humanities Foundation, 2007 to present.

        National Advisory Board, Milken Family Foundation's National 
        Institute for Excellence in Teaching, 2007 to present.

        Board, Southern Regional Education Board, 1999 to present.

        South Carolina International African-American Museum, 2006 to 
        present.

        Board of Directors, Washington Street United Methodist Church 
        Foundation, 2007 to present.

        Community Advisory Board of Columbia, South Carolina, for the 
        Knight Foundation, 2007 to present.

        Dalton and Linda Floyd Family Mentoring Program, Coastal 
        Carolina University (2008-09).

        Leadership Council, Robert E. McNair Center, Francis Marion 
        University (2008-09).

        Board of Directors, State Chamber of Commerce, 2005-06.

        Board of Trustees, University of South Carolina, 1999-2007.

        South Carolina Educational Television Commission, 1999-2007.

        Board of Visitors, Citadel, 1999-2004.

        Founding member, Women in Philanthropy, 2002 to present.

        Junior League of Columbia Community Advisory Board (2002-04).

        Chairman, United Way of the Midlands Success by Six, 1996.

        Board of Directors, United Way of the Midlands, 1996-98.

        Board of Trustees, Allen University, 1996-2007.

        Board of Directors, Common Cause, 1996-97.

        Board, Governor's Juvenile Justice Task Force, 1995-97.

        Board of Directors, South Carolina Family Connections, 1995-97.

        Board of Directors, McKissick Museum, 1992-94.

        Board, University of South Carolina Law School Partnership, 
        1990-92.

        Board of Directors, Nurturing Center, 1990-93.

        Board of Directors, Martin Luther King Monument Foundation, 
        1995.

        Chairman, Environment and Natural Resources Section of South 
        Carolina Bar Association, 1990-91.

        Participant, Leadership South Carolina, 1982-83.

        Board of Directors, International Year of the Child, 1980.

        Board of Directors, South Carolina Cystic Fibrosis Foundation, 
        1978.
Honorary Degrees

        Doctor of Humane Letters, Lander University, 2007.

        Doctor of Laws, South Carolina State University, 2005.

        Doctor of Laws, Newberry College, 2004.

        Doctor of Humanities, Francis Marion University, 2003.

        Doctor of Humane Letters, Southern Wesleyan University, 2003.

        Doctor of Humane Letters, Winthrop University, 2003.

        Doctor of Education, The Citadel, 2002.

        Doctor of Humanities, Furman University, 2002.

        Doctor of Laws, Columbia College, 2001.
Awards and Recognition

        Israel's Star of David Award, Israel Bonds, 2009.

        Community Service Award, Cooperative Ministries, 2008.

        Honorary Member, Order of the Coif, South Carolina University 
        of South School of Law, 2008.

        Woman of Achievement, South Carolina Commission on Women, 2007.

        Order of the Palmetto presented by Governor Mark Sanford, 2006.

        Richard Young Award for Education, Allen University, 2006.

        J. Waites Waring Humanitarian Award, United Black Fund of the 
        Midlands, 2005.

        Distinguished Public Service Award, Delta Kappa Gamma Society 
        International, Alpha Eta State, 2005.

        Award of Achievement, Spartanburg Technical College, Women's 
        History Month, 2005.

        Program Partnership Award, South Carolina Vocational 
        Rehabilitation Association, 2004.

        Friend of Gifted Education, South Carolina Council of Gifted 
        Education, 2003.

        Distinguished Service Award, Greater Columbia Community 
        Relations Council, 2002.

        Citation for Vision and Commitment to Educational Excellence, 
        South Carolina Governor's School for the Arts and Humanities, 
        2002.

        Whitney M. Young Award, Boy Scouts of America, Indian Waters 
        Council, 2001.

        Distinguished Alumni Award, Center for Creative Leadership, 
        Greensboro, North Carolina, 2001.

        Compleat Lawyer Award, University of South Carolina School of 
        Law, 2000.

        Partner in Progress Award, Southern Association of Colleges and 
        Schools, 2000.

        Friend of Reading, South Carolina Reading Recovery Association, 
        1999.

        Woman of Distinction, Congaree Girl Scouts, 1999.

        John Bolt Culbertson Civil Libertarian of the Year Award, South 
        Carolina American Civil Liberties Union.

        Member, State Commission on International Year of the Child, 
        1979.
Personal

        Born: March 8, 1951; Hawkinsville, GA.

        Married: Samuel Jay Tenenbaum; June 3, 1984.
                                 ______
                                 
                              attachment b

                             Inez Tenenbaum
------------------------------------------------------------------------
         Candidate or Political                              Service to
 Year         Organization          Contributor    Amount     Campaign
------------------------------------------------------------------------
 1999   Anne Frances Bleecker     Inez Tenenbaum   $1,000
         for County Council
 1999   David Eckstrom for State  Samuel           $3,500
        Superintendent of          Tenenbaum
         Education Retirement of
         Debt
 1999   Andy Brack for Congress   Inez Tenenbaum     $300
 1999   Andy Brack for Congress   Samuel           $1,000
                                   Tenenbaum
 1999   Bill Bradley for          Samuel           $1,000
         President                 Tenenbaum
 1999   Carol Moseley Braun for   Samuel           $1,000
         U.S. Senate               Tenenbaum
 1999   Jim Bryan for State       Inez Tenenbaum   $1,000
         Senate
 1999   Friends of Jim Clyburn    Inez Tenenbaum   $1,000
         Committee
 1999   Jane Frederick for        Samuel           $1,000
         Congress                  Tenenbaum
 1999   Jane Frederick for        Inez Tenenbaum     $100
         Congress
 1999   Jane Frederick for        Inez Tenenbaum     $250
         Congress
 1999   Gore 2000                 Samuel             $250
                                   Tenenbaum
 1999   Gore 2000                 Samuel             $750
                                   Tenenbaum
 1999   Gore 2000                 Inez Tenenbaum   $1,000  I served on
                                                            the SC
                                                            Steering
                                                            Committee
                                                            for Gore
                                                            2000.
 1999   Gore 2000                 Samuel             $750
                                   Tenenbaum
 1999   Nancy Keenan for          Inez Tenenbaum     $500
         Congress
 1999   Bob Kerrey for U.S.       Samuel           $1,000
         Senate                    Tenenbaum
 1999   Reelect John Land to SC   Samuel           $1,000
         Senate                    Tenenbaum
 1999   SC Legislative Black      Inez Tenenbaum   $1,000
         Caucus
 1999   Lourie for SC Senate      Samuel           $1,000
                                   Tenenbaum
 1999   Mezvinsky for U.S.        Samuel           $1,000
         Senate                    Tenenbaum
 1999   Bill Nelson for U.S.      Samuel           $1,000
         Senate                    Tenenbaum
 1999   Pope for SC Senate        Samuel           $1,000
                                   Tenenbaum
 1999   Pope for SC Senate        Inez Tenenbaum     $600
 1999   Joe Riley for Mayor       Samuel             $500
                                   Tenenbaum
 1999   Robb for U.S. Senate      Samuel             $500
                                   Tenenbaum
 1999   Saleeby for SC Senate     Inez Tenenbaum   $1,000
 1999   Setzler for SC Senate     Samuel           $1,000
                                   Tenenbaum
 1999   James Smith for SC House  Samuel             $500
                                   Tenenbaum
 1999   Washington Political      Samuel           $1,000
         Action Committee          Tenenbaum
 1999   DCCC                      Samuel           $1,000
                                   Tenenbaum
 1999   SC Democratic Caucus      Samuel           $1,000
                                   Tenenbaum
 1999   SC Democratic Party       Inez Tenenbaum   $2,500
 1999   SC Democratic Leadership  Samuel             $500
         Council                   Tenenbaum
 1999   BackPac (Senator Bob      Samuel           $5,000
         Kerry)                    Tenenbaum
 1999   John McCain for           Samuel           $1,000
         President 2000            Tenenbaum
 1999   Stabenow for U.S. Senate  Samuel             $250
                                   Tenenbaum
 2000   Carper for U.S. Senate    Inez Tenenbaum   $1,000
 2000   Andy Brack for Congress   Samuel           $1,000
                                   Tenenbaum
 2000   Braun for U.S. Senate     Samuel           $1,000
                                   Tenenbaum
 2000   Brightharp for Congress   Samuel             $500
                                   Tenenbaum
 2000   Bryan for SC Senate       Inez Tenenbaum     $500
 2000   Citizens for a            Samuel           $1,000
         Competitive America       Tenenbaum
        (Sen. Hollings)
 2000   Trish Caulder for SC      Inez Tenenbaum     $250
         House
 2000   Trish Caulder for SC      Inez Tenenbaum     $250
         House
 2000   John Drummond for SC      Inez Tenenbaum   $1,000
         Senate
 2000   John Drummond for SC      Samuel           $1,000
         Senate                    Tenenbaum
 2000   Jane Frederick for        Inez Tenenbaum     $750
         Congress
 2000   Martin Frost for          Samuel           $1,000
         Congress                  Tenenbaum
 2000   David Haller for SC       Inez Tenenbaum     $500
         House
 2000   David Haller for SC       Inez Tenenbaum     $500
         House
 2000   John Land for SC Senate   Inez Tenenbaum   $1,000
 2000   Friends of Dick Lugar     Samuel             $500
         for Senate                Tenenbaum
 2000   Lawrence for SC House     Samuel             $500
                                   Tenenbaum
 2000   Mizell for SC Senate      Samuel           $1,000
                                   Tenenbaum
 2000   Kay Patterson for SC      Inez Tenenbaum     $500
         Senate
 2000   Spratt for Congress       Samuel           $1,000
                                   Tenenbaum
 2000   Brian Schweitzer for      Samuel           $1,000
         U.S. Senate               Tenenbaum
 2000   Brian Schweitzer for      Samuel           $1,000
         U.S. Senate               Tenenbaum
 2000   Bernice Scott for County  Inez Tenenbaum   $1,000
         Council
 2000   Bernice Scott for County  Inez Tenenbaum     $500
         Council
 2000   Verne Smith for SC        Inez Tenenbaum     $500
         Senate
 2000   Stabenow for U.S. Senate  SamuelTenenbau     $500
                                   m
 2000   Stabenow for U.S. Senate  Samuel             $100
                                   Tenenbaum
 2000   SC Black Caucus           Inez Tenenbaum   $1,000
 2000   DCCC non-federal account  Samuel           $5,000
                                   Tenenbaum
 2000   Democratic National       Samuel           $5,000
         Committee                 Tenenbaum
 2000   Nancy Keegan for          Inez Tenenbaum     $250
         Congress
 2000   Washington Political      Samuel           $1,000
         Action Committee          Tenenbaum
 2001   Steve Benjamin for        Inez Tenenbaum   $1,000
         Attorney General
 2001   Steve Benjamin for        Inez Tenenbuam     $250
         Attorney General
 2001   Bob Coble for Mayor       Samuel             $500
                                   Tenenbaum
 2001   Vince Ford for School     Inez Tenenbaum     $500
         Board
 2001   Ben Gregg for             Samuel           $1,000
         Agriculture               Tenenbaum
         Commissioner
 2001   Hahn for Mayor            Samuel           $1,000
                                   Tenenbaum
 2001   Alex Sanders for U.S.     Samuel           $1,000
         Senate                    Tenenbaum
 2001   Alex Sanders for U.S.     Samuel           $1,000
         Senate                    Tenenbaum
 2001   Shaheen for U.S. Senate   Samuel           $1,000
                                   Tenenbaum
 2001   Brent Weaver for          Samuel           $1,000
         Congress                  Tenenbaum
 2001   Brent Weaver for          Samuel           $1,000
         Congress                  Tenenbaum
 2001   Washington Political      Samuel           $1,000
         Action Committee          Tenenbaum
 2001   Washington Political      Samuel           $1,000
         Action Committee          Tenenbaum
 2001   Democratic National       Samuel             $200
         Committee                 Tenenbaum
 2001   Democratic National       Samuel             $100
         Committee                 Tenenbaum
 2001   Democratic National       Inez Tenenbaum     $200
         Committee
 2001   SC Democratic Party       Inez Tenenbaum   $1,000
 2001   SC Democratic Party       Samuel           $3,500
         Victory Account           Tenenbaum
 2001   Martin Frost for          Samuel             $500
         Congress                  Tenenbaum
 2001   Gephardt in Congress      Samuel           $1,000
         Committee                 Tenenbaum
 2002   Bowles for U.S. Senate    Samuel           $1,000
                                   Tenenbaum
 2002   Beth Burns for SC Senate  Inez Tenenbaum     $500
 2002   Beth Burns for SC Senate  Inez Tenenbaum     $250
 2002   Friends of Jim Clyburn    Samuel           $1,000
                                   Tenenbaum
 2002   Friends of Jim Clybum     Inez Tenenbaum     $500
 2002   Committee to Elect Artur  Samuel           $1,000
         Davis to Congress         Tenenbaum
 2002   Gephardt in Congress      Samuel           $1,000
         Committee                 Tenenbaum
 2002   Reelect Govan to the      Inez Tenenbaum   $1,000
         House
 2002   Ben Gregg for             Samuel           $1,000
         Agriculture               Tenenbaum
         Commissioner
 2002   Lander for Comptroller    Samuel           $1,000
         General                   Tenenbaum
 2002   Leventis for Lt. Gov.     Samuel             $250
                                   Tenenbaum
 2002   Leventis for Lt. Gov.     Samuel             $500
                                   Tenenbaum
 2002   Shaheen for U.S. Senate   Samuel             $500
         Committee                 Tenenbaum
 2002   Kit Smith for County      Inez Tenenbaum   $1,000
         Council
 2002   Rick Wade for Sec. of     Samuel           $1,000
         State                     Tenenbaum
 2002   Washington Political      Samuel           $1,000
         Action Committee          Tenenbaum
 2002   Steve Benjamin for        Inez Tenenbaum     $250
         Attorney General
 2003   Anne Frances Bleecker     Inez Tenenbaum     $500
         for Council
 2003   John Kerry for President  Samuel           $1,000
                                   Tenenbaum
 2003   John Kerry for President  Samuel           $1,000
                                   Tenenbaum
 2003   Reelect Land to SC        Samuel             $500
         Senate                    Tenenbaum
 2003   Lander for SC Senate      Samuel             $500
                                   Tenenbaum
 2003   Reelect Lourie to SC      Samuel             $500
         Senate                    Tenenbaum
 2003   Reelect Matthews to SC    Inez Tenenbaum     $500
         Senate
 2003   Reelect Patterson to SC   Inez Tenenbaum     $500
         Senate
 2003   Riley for Mayor           Samuel             $500
                                   Tenenbaum
 2004   Carson-John Victory Fund  Samuel           $1,000
                                   Tenenbaum
 2004   Justin Kahn for SC        Samuel           $1,000
         Senate                    Tenenbaum
 2004   Reelect Leventis to SC    Samuel             $500
         Senate                    Tenenbaum
 2004   Reelect Joel Lourie to    Samuel             $500
         SC Senate                 Tenenbaum
 2004   Reelect Matthews to SC    Samuel             $500
         Senate                    Tenenbaum
 2004   Reelect Matthews to SC    Samuel             $350
         Senate                    Tenenbaum
 2004   Andy Rosenberg for        Samuel             $500
         Congress                  Tenenbaum
 2004   Reelect Vincent Sheheen   Inez Tenenbaum     $500
         to SC Senate
 2004   Kit Smith for SC Senate   Samuel           $1,000
                                   Tenenbaum
 2004   Kit Smith for SC Senate   Samuel           $1,000
                                   Tenenbaum
 2004   Inez Tenenbaum for U.S.   Samuel           $2,000
         Senate                    Tenenbaum
 2004   Jay West for SC Senate    Samuel             $500
                                   Tenenbaum
 2004   Jay West for SC Senate    Samuel             $500
                                   Tenenbaum
 2004   DCCC                      Inez Tenenbaum     $500
 2004   Florida Leadership PAC    Samuel           $1,000
                                   Tenenbaum
 2004   SC Legislative Black      Samuel           $1,000
         Caucus                    Tenenbaum
 2004   Democratic Party of       Samuel           $5,000
         South Carolina            Tenenbaum
 2004   Democratic Party of       Samuel           $5,000
         South Carolina            Tenenbaum
 2005   Barber for Lt. Governor   Samuel           $1,000
                                   Tenenbaum
 2005   Barber for Lt. Governor   Inez Tenenbaum     $100
 2005   Citizens for Biden        Samuel           $1,000
                                   Tenenbaum
 2005   Casey for Pennsylvania    Samuel           $1,000
                                   Tenenbaum
 2005   Cantwell for U.S. Senate  Samuel             $500
         2021                      Tenenbaum
 2005   Condon for City Council   Inez Tenenbaum     $500
 2005   Friends of Joe Lieberman  Samuel           $1,000
                                   Tenenbaum
 2005   Friends of Joe Lieberman  Samuel           $1,000
                                   Tenenbaum
 2005   John Spratt for Congress  Samuel           $1,000
                                   Tenenbaum
 2005   Stabenow for U.S. Senate  Samuel           $1,000
                                   Tenenbaum
 2005   Whitehouse for U.S.       Samuel           $1,000
         Senate                    Tenenbaum
 2005   SC Democratic Caucus      Samuel           $1,000
                                   Tenenebaum
 2005   SC Democratic Party       Samuel           $5,000
                                   Tenenbaum
 2005   SC Democratic Party       Inez Tenenbaum     $250
 2006   Moore for Governor        Samuel           $3,500
                                   Tenenbaum
 2006   Defelice for Agriculture  Samuel             $500
         Commissioner              Tenenbaum
 2006   Defelice for Agriculture  Samuel             $300
         Commissioner              Tenenbaum
 2006   Jim Rex for State         Samuel           $1,000
         Superintendent of         Tenenbaum
         Education
 2006   Jim Rex for State         Samuel             $250
         Superintendent of         Tenenbaum
         Education
 2006   Jim Rex for State         Inez Tenenbaum   $2,000
         Superintendent of
         Education
 2006   Jim Rex for State         Samuel           $1,000
         Superintendent of         Tenenbaum
         Education
 2006   Grady Patterson for       Samuel             $250
         Treasure                  Tenenbaum
 2006   Grady Patterson for       Samuel             $250
         Treasure                  Tenenbaum
 2006   Sellers for SC House      Samuel             $500
                                   Tenenbaum
 2006   Drew Theodore for         Samuel           $1,000
         Comptroller General       Tenenbaum
 2006   Drew Theodore for         Inez Tenenbaum   $1,000
         Comptroller General
 2006   SC Senate Democratic      Samuel           $1,000
         Caucus                    Tenenbaum
 2006   Robert Barber for Lt.     Samuel             $500
         Gov.                      Tenenbaum
 2006   Robert Barber for Lt.     Samuel           $1,000
         Gov.                      Tenenbaum
 2006   Robert Barber for Lt.     Samuel             $300
         Gov.                      Tenenbaum
 2006   Bob Coble for Mayor       Samuel           $1,000
                                   Tenenbaum
 2006   Forward Together PAC      Inez Tenenbaum     $500
         (Mark Warner)
 2006   Forward Together PAC      Inez Tenenbaum   $1,000
 2007   Dollars for Democrats     Samuel           $3,000
                                   Tenenbaum
 2007   Obama for America         Inez Tenenbaum   $2,300  I served as a
                                                            volunteer in
                                                            the Obama
                                                            campaign and
                                                            was a
                                                            national
                                                            surrogate
                                                            speaker, on
                                                            the
                                                            education
                                                            advisory
                                                            committee,
                                                            and on the
                                                            SC Steering
                                                            Committee.
 2007   Obama for America         Inez Tenenbaum   $2,300
 2007   Bridge PAC (Jim Clyburn)  Samuel           $1,000
                                   Tenenbaum
 2007   Biden for President       Samuel           $2,000
                                   Tenenbaum
 2007   Friends of Mary Landrieu  Inez Tenenbaum   $1,000
 2007   Jim Rex for State         Samuel             $500
         Superintendent of         Tenenbaum
         Education
 2007   Belinda Gergel for City   Samuel           $1,000  I served on
         Council                   Tenenbaum                the Gergel
                                                            Steering
                                                            Committee as
                                                            a volunteer.
 2007   Jim Rex for Our Schools   Samuel             $100
                                   Tenenbaum
 2007   Footlik for Congress      Samuel             $500
                                   Tenenbaum
 2007   SC Democratic Party       Samuel             $500
                                   Tenenbaum
 2007   Sellers for SC House      Inez Tenenbaum   $1,000
 2007   Belinda Gergel for City   Inez Tenenbaum   $1,000  I served on
         Council                                            the Gergel
                                                            Steering
                                                            Committee as
                                                            a volunteer.
 2007   Anne Frances Bleecker     Inez Tenenbaum     $500
         for City Council
 2007   Democratic National       Samuel             $500
         Committee                 Tenenbaum
 2007   Jim Rex Campaign          Inez Tenenbaum     $150
 2008   Runyan for City Council   Inez Tenenbaum     $500  Volunteer and
                                                            wrote letter
                                                            of
                                                            endorsement
                                                            for direct
                                                            mail.
 2008   Norrell for SC Senate     Inez Tenenbaum     $500
 2008   Middleton for SC House    Inez Tenenbaum     $500
 2008   Darrell Jackson for SC    Samuel           $1,000
         Senate                    Tenenbaum
 2008   Landrieu for U.S. Senate  Inez Tenenbaum   $1,000
 2008   Shaheen for U.S. Senate   Inez Tenenbaum   $1,000
 2008   Greenville Democratic     Inez Tenenbaum     $500
         Women
 2008   Carl Levin for U.S.       Inez Tenenbaum   $1,000
         Senate
 2008   Rise SC                   Samuel           $1,000
                                   Tenenbaum
 2008   Spratt for Congress       Samuel             $500
                                   Tenenbaum
 2008   Klobuchar for Minnesota   Samuel             $500
         2012                      Tenenbaum
 2008   Obama for America         Samuel             $500
                                   Tenenbaum
 2008   Obama for America         Samuel             $750
                                   Tenenbaum
 2008   Rob Miller for Congress   Samuel           $1,000
                                   Tenenbaum
 2008   Ketner for Congress       Samuel           $1,000
                                   Tenenbaum
 2008   Obama for America         Samuel           $1,000
                                   Tenenbaum
 2008   Kay Hagen Senate          Inez Tenenbaum   $1,000
         Committee
 2008   Obama for America         Inez Tenenbaum     $500
 2008   Obama Victory Fund        Inez Tenenbaum     $250
------------------------------------------------------------------------


    Senator Pryor. Thank you. And thank you for that statement.
    For the Senators who have just arrived, it looks like we 
have a vote scheduled for 11:45, unless somebody tells me that 
changes. And what I'd like to do is have everyone submit their 
opening statements for the record, and just dive right into 
questions.
    And I'll start, and I'll try to keep mine to less than 5 
minutes, if I can.
    Ms. Tenenbaum, let me ask about your background. I think 
one of the most significant things you've done in your life is 
taking on the challenges in South Carolina with the education 
system. Can you tell the Committee how you think that has 
helped to prepare you for the task that you have at the CPSC?
    Ms. Tenenbaum. Thank you, Mr. Chairman.
    As State Superintendent of Education, I managed an agency 
with over 1,000 employees. That agency worked to implement 
policy and regulations that were passed by the South Carolina 
General Assembly. And we also worked with the school districts 
to provide transportation, food service, textbooks, and to 
train teachers in areas of teaching and learning. I had 
multiple projects going on at the same time in various 
divisions, and we regularly had to implement legislation, many 
times in a very quick fashion that was passed by the General 
Assembly. I never tried to fight legislation passed by the 
General Assembly. If it wasn't perfect at the moment, then I 
worked with the General Assembly and worked with the statute to 
see if I could implement that statute.
    I am very familiar with the regulatory process, due 
process, writing and implementing regulations, working to form 
consensus with industry, with advocacy groups, with people 
concerned about the well-being of children, to make sure 
everyone has a fair hearing. I think that has trained me to 
know that we do not act alone in the Executive Branch. If I'm 
confirmed as Chairman, I need to have a partnership with you, 
to inform you regularly on matters in which the Commission is 
involved, and to seek your guidance and assistance in carrying 
out the laws you pass.
    Senator Pryor. Thank you.
    Could you talk a little bit about your management style? 
You mentioned you had 1,000 employees in South Carolina. You'll 
have 500 here. I think it's fair to say, and I think most 
people would agree, that there is an issue of morale at the 
Consumer Product Safety Commission right now, just for various 
reasons, and--could you talk a little bit about your management 
style and some of the things you would like to see happen at 
CPSC?
    Ms. Tenenbaum. Thank you, Mr. Chairman.
    If confirmed, I want to assure you that the Commission will 
operate in an open, transparent, and collaborative way, and in 
a way that engenders the trust from the President, the 
Congress, and the American people. The Commission will have 
proper management and accounting controls, and operate to the 
greatest efficiency. I want to employ persons with the greatest 
talent, integrity, and motivation to protect Americans from 
unsafe products.
    One of the things that is urgent is the full implementation 
of the Consumer Product Safety Improvement Act, which you 
passed last year. We have third-party certification of products 
coming online, accreditation of third-party laboratories, 
tracking labels on which guidance is due in August.
    We also have a mandate under that law to increase public 
awareness on consumer products, and create a website in which 
consumers can talk about their experiences with products and 
search other products. One of the largest challenges that we 
will face is timely implementation of regulations so that 
industry has guidance.
    I have heard about the morale at the agency, and I think 
some of those morale problems come from the fact that the 
Commission has a large agenda, a surge of imports, and so much 
to handle, and yet it did not have the staff in place and did 
not have the budget necessary to meet all of these challenges.
    So, I want to work with you to use wisely the 71-percent 
increase in the budget that you've provided for this coming 
year, to hire the people who have the greatest motivation to 
protect the people, and to work to settle many of these 
unintended consequences you may not have anticipated when 
Congress passed the Act.
    Senator Pryor. Thank you.
    I do think this is going to be work in progress. I mean, I 
think you need a little bit of time to get your feet wet and 
get our bearings there at that agency. So, as issues present 
themselves, I'm sure the Committee would appreciate hearing 
from you on various things, whatever they may be, challenges, 
successes, whatever they may be.
    And I think it's probably a good idea, maybe, for you to 
come back to the--either the Committee formally, or have a 
meeting informally with us, say, in--I'll just say 60 days 
after your confirmation, to give us a sense of how things are 
going. And if there are specific issues that are still out 
there, maybe we can talk about those in detail once you're 
there.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman.
    I was very pleased to have a meeting with Ms. Tenenbaum 
last week, and I was very encouraged with her talk of her 
record of working with the South Carolina legislature in her 
position as head of education in the State. And I think that's 
a good sign for working with Congress, as well.
    As you know, we did pass the Act last year. Our Chairman 
was a real leader in that effort. And I think that many good 
things were done in that legislation. However, there are some 
glitches, as often happens with legislation, and some areas 
where there have been differences of opinion about the intent 
of some of the language. So I would like to ask you a couple of 
questions.
    First is the required question that the Ranking Member 
always asks, and that is that our committee has always worked 
well with staff in the agencies, and the heads of agencies; and 
when we are developing or proposing legislation, we need their 
technical expertise. And my question is, can all of our members 
of the Committee count on being able to call in to your agency 
for the expertise that we might need to help us draft 
legislation, or to exercise our responsibility in oversight?
    Ms. Tenenbaum. Yes, Senator. And thank you for that 
question.
    You will have access to the work of the agency. We have 
very talented people at the agency. You can talk with the 
scientists, with the engineers, with the experts in that area. 
Also, we want you or any member of your staff to be able to 
call me at any time. We will work with you in partnership.
    Senator Hutchison. Well, one thing I think our committee 
probably will need to do is have a hearing on the Act that we 
passed last year, to see where the kinks are, and see where we 
need to do some technical corrections.
    Let me ask you one question on that. We discussed some of 
the unintended results impacting thrift stores, charity sales, 
small businesses, and you used the word ``common sense'' in 
your description of what you think is right in the enforcement 
arena. So, I would ask you if you think the law gives you 
sufficient flexibility for the common sense enforcement that I 
think we agree is the right standard? And where do you think it 
doesn't give enough flexibility, and the law is clear, even if 
it is pretty hard to enforce?
    Ms. Tenenbaum. Well, thank you, Senator.
    It would be premature--and we talked about this in your 
office--to take a position on whether the law needs to be 
amended. But, I hope that my tenure at the Commission will be 
seen as a tenure where we worked with people to exercise common 
sense in a regulatory manner.
    Acting Chairman Moore has said that we need to wait until 
the Commission is fully formed to collectively make decisions. 
I am a collaborator. I want the input of my fellow 
Commissioners, as well as the staff, and also in conversation 
with you, to discuss implementation of some areas of the law, 
and to address areas that are unclear.
    As soon as we can have guidance and regulations in place, 
industry will know what to do. I know there are some areas, 
like tracking labels, on which industry is waiting for answers. 
And, as soon as we can promulgate the regulations and get 
guidance in place in all of these areas by working with 
industry and consumers to ensure that their concerns are heard, 
the fewer complaints you will receive about the law here in the 
Senate.
    Senator Hutchison. Could I ask you one other question 
regarding the use of stays of enforcement. Where you have found 
that a business needs more time to comply with the law, do you 
think the stays of enforcement are sufficient, or do you think 
we need to revisit, maybe, that area of the law to give more 
flexibility, again, when a business does need more time? Or, in 
the situation with the youth ATV vehicles, where there needs to 
be some other approach.
    Ms. Tenenbaum. The Commission has issued a general stay of 
enforcement on testing and certification requirements. There 
are some products that are not included in that stay, like 
lead-based paint, pacifiers and cribs. But, they also 
specifically issued a stay of enforcement for the ATVs, to give 
the industry more time to see if they could remove lead from 
the ATVs without jeopardizing structural integrity.
    The stays of enforcement seem to be working. The general 
stay of enforcement for testing and certification gave the 
Commission time to write regulations. As soon as these 
regulations are in place, the Commission will probably have to 
issue fewer stays of enforcement.
    As I have found out in doing my research and talking to 
members of this committee, and to others who are involved with 
enforcing the law, what is needed is the clear guidance on all 
of these sections of the CPSIA, and also, regulations. And once 
those are in place, I think you will see fewer stays of 
enforcement.
    Senator Hutchison. Thank you very much, Mr. Chairman.
    Senator Pryor. Thank you.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    Thank you, Ms. Tenenbaum, for your willingness to take on 
this assignment.
    We, in our professional life here, have a chance to meet 
candidates for office that are recommended, and it's so nice, 
very frankly, when we have someone who is here, presenting 
themselves to the Committee, who have the kind of background 
that you have, which is, I think, perfectly suited to taking 
the responsibility that you're about to take. And I noticed 
that your focus is on the quality of life for children. And 
that's really a principal focus for the Consumer Product Safety 
Commission.
    One of the things that we've seen happening now is that 
there is a focus on toy guns. News reports have shown the 
popularity among children with toy guns that look like real AK-
47s, or other assault rifles. As a matter of fact, in some 
instances, young people have been killed by police officers who 
believe, because these guns look so realistic, that they're 
holding a weapon, and the consequence is terrible. And we see 
lots of injuries. In 2007, we had something like 11,000 
injuries from toy guns, whether it's in the production of these 
things, or whether it's the way the parts are put together.
    But last year--you were discussing morale a moment ago with 
the Chairman--I sent a letter to the CPSC asking it to 
investigate this issue, but I never received a response. Now, 
I'm hoping that, with your confirmation, that you'll work with 
me to review the safety of these guns. Is that a problem for 
you in any way?
    Ms. Tenenbaum. No, sir----
    Senator Lautenberg. Not the working with me, I mean----
    [Laughter.]
    Ms. Tenenbaum. Thank you, Senator.
    I will work with all the Members of Congress. When I was 
State Superintendent of Education, if a member of the 
legislature wrote me, I answered that letter. In fact, I read 
the letters from legislators personally. If I needed to call 
the House or Senate member to find out what their concerns 
were, I did.
    Senator Lautenberg. Your reassurance----
    Ms. Tenenbaum. I will work with you.
    Senator Lautenberg.--your assurance is noted.
    Last year, I met with a New Jersey family whose daughter 
was severely injured due to a crib that collapsed. Oddly 
enough, my wife's daughter, my step-daughter, had a baby, and 
she's just turning a year old, and I was with her this weekend, 
and she was chewing the paint off the crib. And even though 
these things are lead free, I don't think it's very healthy for 
children to have paint chips in their system.
    Now, under your leadership, will the CPSC require cribs to 
be tested so--to prove that they are durable and will not 
collapse under pressure?
    Ms. Tenenbaum. Thank you, Senator.
    If I'm confirmed, I will see that the requirement under the 
new law, the Consumer Product Safety Improvement Act, to take 
voluntary crib standards and make them mandatory, is carried 
out. That's what this law requires for durable nursery 
equipment and products. Those products were under voluntary 
standard, and the law requires the Commission, this year, to 
issue rules to make them mandatory. And therefore, we would 
have enforcement over the manufacturers if the paint chips came 
off in a baby's mouth.
    Senator Lautenberg. Despite the high number of recalls on 
children's products, consumers rarely return recalled products. 
As a matter of fact, it's only--it's estimated that only 5 
percent of the time do they do so. I hope that you'll increase 
outreach with the--with a full complement of staff so--to make 
consumers aware of the recalls of dangerous products. And that 
certainly is a quality-of-life issue. We can do pretend here--
pretend for the moment that you are Chairman, and that you will 
look to see that, when there is a recall, that a reason is 
produced for doing so, and that you'll do your best to alert 
the public to the importance of accepting a recall and 
returning the product.
    Ms. Tenenbaum. Thank you. I will, if I'm confirmed, make 
public information and education a top priority. I also will 
work with the States' Attorneys General departments of health 
and environment control, and the State consumer affairs offices 
to enlist their support with recalls.
    One of the things the agency is charged to do is to educate 
the public on recalls. I've understood that the agency has 
recalled certain items, and then later on there were deaths 
attributable to those items. It would worry me tremendously if 
that happened on my watch. Public information will be a top 
priority.
    Senator Lautenberg. Thanks.
    Thanks, Mr. Chairman. Thank you, Ms. Tenenbaum.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, so much of what we in the Senate--and all Americans--
do is motivated by the instinct to protect our children.
    Just last week, we passed long-overdue legislation to shield our 
kids from the dangers of smoking.
    And in the Senate Environment and Public Works Committee, we have 
been taking a hard look at toxic chemicals in everyday products our 
kids come in contact with.
    Today, we turn our focus to the Consumer Product Safety Commission, 
which oversees products that cause 27,000 deaths and 33 million 
injuries each year.
    It's essential for the Commission to have the resources to protect 
our children and families--and the leadership to get the job done.
    Unfortunately, in the past, it has been lacking both.
    The previous Administration's funding cuts were so severe, for 
example, that the CPSC had less than half the number of workers it had 
in 1980.
    We cannot expect a skeleton staff to ensure the safety of 15,000 
consumer products--a number that's still growing.
    But President Obama has recognized the needs of the CPSC and given 
it the resources and leadership it deserves.
    The President's budget includes more than $105 million to hire and 
train more staff, conduct more outreach and education about safety, and 
gain the expertise needed to ensure consumer products are safe.
    The President has also chosen a smart and skilled leader in Inez 
Tenenbaum.
    As the former South Carolina Superintendent of Education, Ms. 
Tenenbaum knows what it takes to keep children safe--and she has proven 
she can do just that.
    While in that role, she was responsible for raising student 
achievement scores and improving educational standards across the 
state--a sign that her policies put kids first, which is the kind of 
mindset I believe we need at the CPSC.
    If confirmed, I look forward to working with Ms. Tenenbaum to 
increase the safety of children's products and I am eager to hear her 
testimony about how she plans to do so.
    Thank you, Mr. Chairman.

    Ms. Tenenbaum. Thank you.
    Senator Pryor. Thank you.
    Senator DeMint?
    Senator DeMint. Thank you, Mr. Chairman.
    You've really covered a lot of my concerns with the current 
law, and words like ``common sense'' encourage me. I know the 
agency has done some things to delay implementation. It seems, 
perhaps, not beneficial--and, Inez, you and I have talked a 
fair amount about this law and whether or not we need 
legislation. And we'll just wait to hear from you on that.
    But, just one comment that goes under the umbrella of 
common sense is, that the goal is more safety, not more 
regulation. And the problem we often have is--we develop a 
comprehensive regulatory scheme, that tends to favor large 
companies who have contingents of lawyers and people who can 
deal with them. And in this country, there are a lot of small 
manufacturers of a lot of products, a lot of small toy 
manufacturers, and handmade toys. And some of the law has been 
interpreted in a way that would make it very difficult for 
these companies to do the type of testing that would be 
necessary to comply in any way that they could afford to do it.
    And I would just ask you, as you look at this, is to 
remember that the whole point of this is not to run small 
companies out of business. But, if we have such a heavy 
regulatory scheme, it may be very difficult for them to afford 
the tests that are required to comply. There are often other 
ways to do that, such as, make sure the components are tested, 
not necessarily the final product. But, I would just appeal to 
you to do everything you can to make sure that we make our 
products safer, but also keep America a good place to make 
products.
    Ms. Tenenbaum. Thank you, Senator.
    I'm very sensitive to the concerns of small businesses. My 
husband worked with his family's steel company, a small 
business, for many years. I understand that there is a great 
deal of worry among the toy manufacturers and other smaller 
businesses. Because the CPSC is a quasi-judicial administrative 
body, I cannot say how I would vote. I have to refrain from 
doing that. But, I will approach the interpretation of this law 
in a common sense way. The component testing is an issue that 
will get full attention but I cannot project how I will vote or 
the issue beforehand----
    Senator DeMint. Sure.
    Ms. Tenenbaum.--without talking to my fellow Commissioners 
and the staff at the CPSC.
    But, that is an issue that the hand-held toy and the small 
manufacturers have brought up. If the components are tested, 
and we know they contain no lead, can we go forward and not 
have a test on the finished product? And that will receive my 
full attention and consideration, if confirmed by this Senate.
    Senator DeMint. It's all I can ask. Thank you.
    Ms. Tenenbaum. Thank you.
    Senator DeMint. I yield back, Mr. Chairman.
    Senator Pryor. Thank you.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, and welcome. And congratulations 
on this great nomination. And, you know, one of the former, I 
think, most memorable, Chairmen of this Committee, Fritz 
Hollings, is a great fan of yours. You know that.
    Ms. Tenenbaum. Thank you, yes.
    Senator Boxer. And I figure that anyone who has earned the 
admiration and respect of Senator Fritz Hollings, Senator 
Lindsey Graham and Senator Jim DeMint is the person of great 
ability.
    [Laughter.]
    Senator Boxer. And the ability to bring people together and 
to win their respect, means so much in the role that you're 
going to play.
    And I only have one question. I'm going to preface it by 
some remarks, which will show where my bias is. And my bias is 
in protecting children, and it always has been. And I know you 
come from that place as well.
    But, I just want to make sure you know that it was in the 
1980s, when I came to Congress, that all of our regulations 
were based on protecting a 155-pound man. And that was how--
that's everything that was done, including all of the tests 
that went through the NIH. There were no women in the tests, 
there were no children in the tests.
    And we worked together, all of us, across party lines, to 
change that. And I think the beauty of our work is very simple. 
When you protect the children, you protect everyone. If you 
go--if you protect a 155-pound man, a healthy man, it's going 
to be good for all those guys who are in that category. But, 
the vulnerable folks--the children, the pregnant women, those 
with disabilities, and so on--are not protected. So, it's such 
a win-win to protect the children.
    And I think that was our goal when we wrote this law that 
you are going to find yourself in the middle of, the Consumer 
Product Safety Improvement Act. So, I guess that my one 
question is, can you assure me that, in your work, that you 
will put the children first?
    Ms. Tenenbaum. Senator, thank you. I appreciate that 
question.
    And yes, I will put the children first. I often gave a 
speech, as State Superintendent of Education, and I quoted the 
Hopi Indians, who, before they made any decision, would ask one 
thing: is it good for the children? And I will ask, before we 
make any rulemaking, is this good for the children of the 
United States?
    Thank you.
    Senator Boxer. Well, thank you. I think, following that, we 
can't go wrong. We'll all be protected, and yet you're going to 
do it in a way that allows responsible companies to make good 
products and sell those products.
    And I'm just so excited about your nomination, and 
extremely pleased at the bipartisan support you've received 
thus far.
    And I hope, Mr. Chairman, that we can move this very 
quickly.
    Thank you.
    Ms. Tenenbaum. Thank you.
    Senator Pryor. Thank you.
    Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman.
    I know this is kind of a chorus we're hearing from both 
sides, but I want to add my strong support of Inez. As I've had 
the opportunity to work with her in politics, I've had the 
opportunity to work with her when she did such a great job in 
education in South Carolina. She was a great partner, we found, 
in Virginia, on a series of education initiatives. And I think 
you are absolutely the right person at the right time for an 
agency that has truly been troubled.
    And while I know you introduced your husband, there are--
looking around this room, there are a series of other 
distinguished South Carolinians who are here to show support 
for you. Some of them--it's tough to get them all in the same 
room with the same common cause. I hope you're not paying all 
of them, because some of them are, you know, pretty expensive, 
high-priced folks here in town now.
    [Laughter.]
    Senator Warner. But, Inez, let me just put a marker out. I 
know, I think, when the Chairman was initially talking, as we 
came in, he had raised an issue that he has played a leadership 
role on, along with Senator Landrieu, Senator Martinez and 
Senator Nelson, from Louisiana and Florida, respectively, and 
that's this Chinese drywall issue.
    I know your agency, or your new agency, is working on this 
issue. I can tell you that the stories that we heard with some 
of the folks who've been victimized by this, almost Kafkaesque 
tragedy, was pretty remarkable when we had them in recently. 
The folks from your agency were saying they were starting the 
testing. I want to make sure Virginia continues to be--because 
we've been hit down in Hampton Roads on this issue.
    But, it was amazing. They were saying, ``We're doing the 
testing, but we still don't have enough money or resources to 
do it in a timely manner.''
    And in effect, these people, who are living in these 
virtually worthless homes at this point, were basically told, 
you know, ``We think it's tough, we understand it's 
challenging, but you've got to continue to live in these places 
where you could be creating a health hazard for yourself and 
your children.''
    And, Inez, the thing that was most remarkable--afterwards, 
a series of the families came out and talked to me about the 
fact that some of the inspectors had stopped going in and 
inspecting in person, and instead were simply soliciting the 
information over the phone, because the inspectors were 
finding, just coming in and spending an hour or two in the 
home, they were starting to get some of the ill health effects, 
in terms of finding shortness of breath and finding, breaking 
out and other bad health effects. And it was just amazing to me 
that our Federal Government was then saying, ``We don't even 
want to send our inspectors in to do this, we want to do it 
over the phone. But, by the way, if you have the misfortune, 
having done nothing wrong on your own part, to be living in one 
of these health hazards, we have no recourse for you.''
    So, from my colleagues, you're hearing other issues of 
great concern, but this Chinese drywall problem is an enormous, 
enormous challenge. I hope you will continue to also press to 
make sure that we can work with you to find relief for these 
families. And if there is legislative solutions that need to be 
taken, I know the Chairman has moved aggressively on this 
issue. I just want to add my voice--we'll be there to do all we 
can to make sure this issue is brought to full and speedy 
resolution.
    I know you've--not even into the job. I'm sure you've been 
briefed on this a little, but if you've got any comments about 
the Chinese drywall issue, I would love to hear them.
    Ms. Tenenbaum. Thank you, Senator.
    If I'm confirmed, I will work with you to get a resolution 
to the Chinese drywall. I have met with Senator Bill Nelson, 
and I understand how concerned he is. He has told me about the 
respiratory problems, the corrosion of the wiring in homes, and 
the fear that even the gas lines in the walls may be corroding 
in homes in Florida.
    Also, I've reviewed the letter that Acting Chairman Nancy 
Nord wrote to Senator Nelson, laying out a five-track strategy 
from the Commission. And I'm also aware that two Senators--or, 
four Senators have asked the Commission to set aside $2 million 
of the new appropriation just to address the Chinese drywall 
problem.
    I want to commend the Commission for creating the website 
so people can write in, and also for the work that they've done 
with the EPA and the Centers for Disease Control to test the 
Chinese drywall.
    What I'm hearing, too, is that the EPA and the CPSC haven't 
concluded what the problem is through these environmental 
tests. So, we need to work collaboratively on this, and, if 
confirmed, I would like to work with you to find out what is 
causing the respiratory problems, and what are the toxic 
elements in the gypsum of the Chinese drywall.
    I understand that the counterpart agency in China, the 
counterpart to the Consumer Product Safety Commission, is 
working with the Commission to resolve this, and that Chinese 
leaders are very aware of it and are trying to address it.
    But, it is a very real problem, causing people great 
hardship, physically, as well as damage to their property, 
rendering their homes worthless. And I will assure you that, if 
I'm confirmed, it will be of top priority to me.
    Senator Warner. The only thing I would ask, Inez, is that--
a lot of this is taking place in Louisiana and Florida--they 
have different climate issues, in terms of humidity, than folks 
we've got in Virginia. And elsewhere, I think we're up to 36 
states now that have experienced this problem. And it's 
remarkable to me that the testing and finding the cause is 
taking this long, when it's evident from the families, and then 
again even from the Consumer Product Safety Commission staff, 
that you start to feel the ill effects, literally just being 
exposed for a few hours.
    So, I would hope that money would be well spent to expedite 
this process. And as you do the additional testing--and I can 
just speak from the Virginia standpoint, but I'm sure my other 
colleagues, who've got other different weather conditions--
simply testing it in the Florida- or Louisiana-type humidity 
issues--we've got humidity in Hampton Roads, but--in Virginia 
Beach and Norfolk--but, probably not quite as much as they've 
got in certain areas in Florida--make sure that you've got 
other States involved in those tests, as well.
    Ms. Tenenbaum. Thank you, Senator.
    I have spoken to Senator Pryor about the same issue in 
Arkansas, which probably has similar climate to Virginia. But, 
it is widespread. And I, like you, don't understand why the 
best scientists can't come to a conclusion on what is in this 
drywall. But, I will, if confirmed, make sure it gets full 
attention. And even if we have to use outsource testing to get 
to the root of it, we need to find out what is in this drywall 
that is making people sick.
    Senator Warner. Mr. Chairman, one thing I'd simply add--and 
I know my time's up, but--and you heard from both of our 
colleagues from South Carolina--the one thing that Inez is 
famous about is, when she gets a hold of a bone, she doesn't 
let it go until she figures out an answer. And I can't think of 
a better person, on a host of these issues, to take them on in 
this new, important role, than Inez Tenenbaum.
    Ms. Tenenbaum. Thank you.
    Senator Warner. Great to see you.
    Ms. Tenenbaum. Thank you, Senator.
    Senator Pryor. Thank you.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Chairman Pryor. I came, for 
three reasons.
    Everybody's calling you ``Inez,'' I will, too. First is 
that both you and your husband are Georgians, and we're very 
proud of that.
    Second, you're a graduate of the University of Georgia, and 
we're extra proud of that.
    And, third, I had the privilege of chairing the Georgia 
Board of Education in the late 1990s, when you became 
Superintendent of Education in South Carolina, and I watched 
what you did in South Carolina, and I want to say that 
everything that Senator DeMint said was absolutely correct. You 
did a marvelous job and demonstrated the kind of attitude 
somebody at the CPSC should have to deal with the difficult 
problems.
    I really don't have a question. I do have two--I want to 
make two endorsements.
    First is what Senator Warner said. This is--the Chinese 
drywall situation is one of any number of product problems 
coming out of China. We obviously can't pass laws that regulate 
production in China, but we have gateways, which are our ports, 
and we have a Commerce Department, and we have a CPSC. And I 
think, somewhere along the line, if you get the chance, a task 
force of representatives from the ports, Homeland Security, the 
Commerce Department, and the CPSC, can possibly come up with 
some ideas of a threshold of entry that could give us some 
degree of protection, or at least send a signal to the world 
that we are looking at the quality of the products that are 
coming in.
    Second, I co-sponsored Senator DeMint's legislation dealing 
with the Consumer Product Safety Improvement Act, which I voted 
for, and Chairman Pryor spent a lot of time on, but it did have 
a lot of unintended consequences. Just one, by way of example: 
I have eight, soon to be nine, grandchildren. One of my 
daughters-in-law, the mother of three, all under 5, chairs the 
largest second-hand clothing sale and second-hand book swap in 
the history of mankind, I think, but it raises a ton of money 
for their church. When that law passed, within weeks they were 
called by their attorneys and told to cancel both those sales 
because of the potential effect and legal liability that was 
put on them as a second-hand seller of a product they neither 
manufactured nor took any responsibility for.
    So, we need to look at the unintended consequence of that 
legislation. I know there's a stay right now on the 
implementation. But, I hope you'll apply the same due diligence 
you did in South Carolina education to that particular subject, 
and try and get it to where the unintended consequences are not 
so onerous for people, for whom it was never intended.
    Ms. Tenenbaum. Thank you, Senator. If I'm confirmed, I will 
work to resolve many of these issues that are coming back to 
you and other members of this Committee. I've read the 
guidelines that the CPSC has promulgated on the second-hand 
stores, and have asked people in the second-hand stores how 
things are going. And many of them said, well, we've read the 
guidelines, and are now not selling durable nursery products 
unless we know that product has not been recalled.
    The Commission has a website, but it requires us to be even 
more diligent in informing the public about products recalled, 
so that second-hand thrift stores aren't always in a quandary 
about whether or not to sell something.
    We can work closely with the State Consumer Products Safety 
Commissions and the Attorneys General to educate people about 
what is required to be recalled and what they can and cannot 
sell.
    A public education campaign is certainly needed, once all 
these regulations are in place. If I'm confirmed, I pledge to 
work with you to do that.
    Senator Isakson. Thank you very much. The best of luck to 
you.
    Ms. Tenenbaum. Thank you. And thank you for being here.
    Senator Pryor. Thank you.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. Thank you, Ms. 
Tenenbaum, for being here, and your family.
    I also have warm words. I remember being down there twice, 
now, to South Carolina, and you were very gracious. I had quite 
an experience down there at Representative Clyburn's fish fry 
that I will never forget, and you were certainly a gracious 
host, thank you very much.
    You and I have talked already about the toy safety and the 
children's product safety bill that was so important to me. We 
had a 4-year-old boy die from swallowing a lead charm. He 
didn't know it was lead. Mom didn't know it was lead. When he 
died after the lead going into his bloodstream--it was tested 
as 99 percent lead. It was from China. And that's why I felt so 
strongly about getting this bill done. I was pleased we got it 
done and passed on a bipartisan basis.
    But, now I look back on how some of these problems, which I 
feel very deeply--in my State--we have the two biggest domestic 
manufacturers of ATVs and snowmobiles in Minnesota, Polaris and 
Arctic Cat. And when I look back at it I think, one, it would 
have been good to have had a more collegial relationship with 
the agency, in terms of working together when these problems 
came on the scene. And, based on what I've heard about your 
working style, I think that that will happen.
    Two, as the legislation was drafted, I think it would have 
been helpful to work more proactively with the CPSC.
    And the third thing, which we've focused on a lot today, is 
the implementation. The handmade toy lines actually got its 
genesis in Minnesota, and you've already answered some 
questions on working with them. And I just had one ATV point, 
just to let you know how important it is in our State. We just, 
this weekend, had 1,600 ATV riders decide to ride in a line to 
break the Guinness Book of World Records, in Silver Bay, 
Minnesota, to have the longest line of ATVs--I know you're 
jealous, Senator Pryor.
    [Laughter.]
    Senator Klobuchar. They wouldn't be doing that in Arkansas.
    But, the question that--I specifically have right now, 
because, of course, this day was much appreciated; I don't 
think any of the Senators thought that the law was going to be 
applied this way. And that--again, you're going to be on a 
judicial body--quasi-judicial--that'll be deciding this. But, 
what's happened right now is that, as of July 12, the ATV, 
snowmobile, and motorcycle manufacturers have to submit to the 
CPSC a report that lists each component part that is made of 
metal and is accessible to children. And there may be hundreds 
of these parts. And the problem for them is, they're trying to 
figure out what's accessible. Because the CPSC is supposed to 
issue a final rule on accessibility, and what's accessible, on 
August 14. So, there's this lag where they're supposed to give 
all their parts, but they don't know what's accessible til 
August 14.
    And so, what they're trying to get is some kind of an 
extension so that they can find out what the CPSC defines as 
accessible, before they go through these hundreds of parts that 
they'd list.
    And I just wondered if you had any thoughts on that, in 
general. You may not want to answer it specifically.
    Ms. Tenenbaum. Thank you, Senator.
    I wanted to add that I read the transcript from the Senate 
debate on this law, and know how much these situations has 
affected you and your State personally. Danny Keysar, the child 
who swallowed the charm off the Reebok shoe and all of the 
children who were hurt from consumer products became very real 
to me after reading the Senate transcript. Because, you're 
right, there are so many people who have died and had been 
injured seriously because we haven't been more vigilant about 
children's products.
    Under the CPSIA, you granted three exemptions from the lead 
limits. One exemption is for inaccessible parts. The second 
exemption is for certain electronic devices. The third is, if 
through normal and foreseeable use or abuse of the product, you 
can document that any lead is not absorbed into the body. Those 
are the three areas where a product can be exempt.
    The stay of enforcement has been issued on the ATVs so that 
the industry can----
    Senator Klobuchar. Right.
    Ms. Tenenbaum.--work to see if less lead is needed without 
interfering with structural integrity.
    One of the largest issues facing the Chairman is how soon 
we can get clear answers on all these questions.
    Senator Klobuchar. Right.
    Ms. Tenenbaum. When I was elected State Superintendent of 
Education, I came into an agency that had been cut in its 
budget and staff, and did not have the resources to implement a 
new law that the General Assembly had just passed, the 
Education Accountability Act. There was confusion in the 
schools on how the new statute would be implemented. We had to 
take that law apart, figure out what we needed to do, work 
overtime, put the policies and procedures in place, and we 
worked as hard as we could to implement it in a very short 
period of time.
    And once it was implemented, the uncertainty was greatly 
reduced.
    Senator Klobuchar. Exactly.
    Ms. Tenenbaum. This is the same situation I'm hearing about 
now with the implementation of the CPSIA.
    Senator Klobuchar. OK.
    Ms. Tenenbaum. As soon as we can issue guidance and 
regulations to help industry interpret this law, industry will 
comply.
    Senator Klobuchar. We appreciate that. And just so you 
know, the ATV industry strongly supported this law because it 
had some good safety standards that would apply to foreign 
manufacturers that had already applied to domestic, and that's 
the irony of this. They supported this, and it was interpreted 
in a way that I don't think any Senator, anyone, expected.
    And just one last thing, if I could, Mr. Chairman. The 
Virginia Graham Pool Act is something that I also worked hard 
on, after we had a tragedy in Minnesota with Abigail Taylor. 
And there, with Senator Pryor and others, we were able to get 
that done a few months after this tragedy happened. And it has 
started to be implemented all over the country. We've worked 
well with the CPSC. Commissioner Nord and I just did an event 
together on this.
    And I just wanted to just say to you, we know the CPSC 
can't enforce it on every little pool all over the country, 
every public pool, but we also know that the education efforts 
will be very important here. So, please take a look at that. 
Because we've found, in our State, we have had no incidents 
since this happened, because, of course, it hit people's hearts 
so much, so the pool operators are all going out and making 
sure things are in better shape. And I think if we can emulate 
that nationally, we'll be in much better shape.
    Ms. Tenenbaum. Thank you, Senator.
    I checked in South Carolina about the implementation of the 
pool standards and found last spring the State Department of 
Health and Environmental Control had written all of the public 
pool owners to inform them about the regulation. Right now, the 
supply for the drain covers doesn't meet the demand, I have 
heard. So, parts and supply are the issues, not the content of 
the law, from what I understand.
    Senator Klobuchar. All right. Thank you very much.
    Ms. Tenenbaum. Thank you.
    Senator Pryor. Thank you.
    Senator Vitter?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman.
    And thank you, Ms. Tenenbaum, for your willingness to 
serve. Thank you very much.
    I wanted to focus on the Chinese drywall issue, also. It 
has caused an enormous negative impact in Louisiana. By our 
estimates, there are up to 7,000 Louisiana homes affected. And 
all of those situations are as Senator Warner described. There 
are serious health symptoms, and yet people don't know exactly 
what the health bottom line is. Also, there's major damage to 
the home, such as corrosion of piping and wiring, which brings 
up fundamental safety issues with gas lines and the like.
    In Louisiana, it's sort of triply tragic because, by 
definition, these are folks who were flooded by one of our 
hurricanes, Katrina or Rita or Gustav or Ike. That's why 
they're ripping out old drywall and why they're putting in this 
new stuff. So, by definition, virtually every one of those 
folks were hard hit by a hurricane or just recovering and have 
finally put their house back together, and then they discover 
this, and they have to start all over, and their house is a 
loss, sometimes a complete loss, yet again. So, it's really 
tragic for folks in that situation.
    I'm certainly continuing to work with Senator Nelson, 
Senator Landrieu, and many others, on legislation and on 
funding, which has the CPSC studying this issue on a more 
accelerated timetable, to study three things in particular. 
Number one, the relationship between the drywall and health 
symptoms; so, what's the bottom line on health, number one. 
Number two, the relationship between the drywall and electrical 
and fire safety issues. And number three, the tracing of the 
origin and distribution of the drywall.
    So, I know that's going on. The big issue is timing. Even 
with these funding assurances, even with a study ongoing, the 
word is it's taking months and months. What can you tell us 
about the current plan at CPSC with regard to the timing of 
this study?
    Ms. Tenenbaum. Well, I understand this committee had a 
hearing 2 weeks ago on Chinese drywall.
    Senator Vitter. Right.
    Ms. Tenenbaum. At the hearing, the EPA gave you the results 
of its tests. And I understand the tests were inconclusive. The 
EPA did not have a report for you on what in the drywall was 
causing the problem. Is that correct, Senator?
    Senator Vitter. That's my understanding, yes.
    Ms. Tenenbaum. And I've reviewed the letter that 
Commissioner Nancy Nord wrote to Senator Bill Nelson. Florida 
has launched its own investigation to use high-performance 
liquid chromatography, or HPLC, to isolate the particles of the 
drywall that may be emitting the gases.
    I understand that the EPA has looked at in-home tests as 
well as chamber tests. And no conclusive report has been issued 
on what substance in the drywall is causing the emissions of 
the sulfur or contaminating the walls.
    My access to information about the CPSC is through the 
public domain and what I have found on the Commission's website 
along with the briefing books that I have been given by CPSC 
staff, but, I would like to meet with the scientists before I 
tell you what the time-frame is. It is my understanding that 
everyone is still grappling with the science, and the testing 
of the drywall. Once we get some information, I will work with 
you on solving this problem. We need to engage in a public 
information campaign to let people know what the hazards are, 
and what their recourses are against the companies that sold 
them the drywall.
    Senator Vitter. Well, my understanding is that, even with 
everything that's been done, and funding commitments for CPSC 
to focus on this immediately, it's going to be a matter of 
many, many months, which strikes me as really frustrating and 
inadequate.
    What will you try to do to accelerate that at CPSC?
    Ms. Tenenbaum. Well, if I'm confirmed, the first week all 
the Commissioners will be invited to have a briefing by the 
staff. I'll ask the staff to come up with timelines to conclude 
the tests, and to get back with the Senate Commerce Committee 
and also with Senators and House members from other States that 
are affected by the drywall and expedite this as soon as 
possible.
    Senator Vitter. OK. Well, I'd----
    Ms. Tenenbaum. We will have a full briefing and come up 
with a schedule of implementation working with you to make sure 
you are fully informed.
    Senator Vitter. Great. I appreciate that, and I look 
forward to following up with regard to that specific timetable, 
because right now, it's on a very frustrating multi-month 
timetable.
    Mr. Chairman, if I could just have a couple other 
questions----
    Senator Pryor. Please do.
    Senator Vitter.--because this really is important.
    This is also part of a broader issue, obviously, with 
China. China is clearly the biggest problem, worldwide, with 
regard to many products. In Louisiana, another big concern is 
contaminated seafood. That's not your jurisdiction, I 
understand that. But, my point is, it's clearly a pattern with 
regard to China. What are your thoughts about focusing on this 
Chinese pattern, to really get some significant new results 
across the board?
    Ms. Tenenbaum. If I'm confirmed, one of the first things 
I'll do is ask for a meeting with the leader of the Chinese 
counterpart to the CPSC, which is the Administration for 
Quality Supervision, Inspection, and Quarantine, to make clear 
the importance of China complying with the--in standards for 
consumer product safety. I also want to work with the Chairman 
to see if the delegation from this Committee would visit China, 
or meet with my counterpart from China to talk about our 
concerns.
    The CPSC has a memorandum of agreement with China, which 
needs to be reviewed, given the large number of imports coming 
from China. We also communicate through the third-party testing 
certification, under the Consumer Product Safety Improvement 
Act to ensure that products coming from China are meeting the 
standards. Third-party testing will be implemented this year 
along with the tracking labels. Before goods come into the 
port, the manufacturer or importer must provide third-party 
testing results to the ports. The CPSC can work with Customs to 
make sure that the certificate is with the imported products. 
With the extra funding that Congress has provided to the CPSC; 
the Commission could increase the number of people at our ports 
to ensure that the third-party certificates are correct.
    Senator Vitter. Right.
    Ms. Tenenbaum. This enforcement will require monitoring and 
vigilance on the part of the Commission to ensure that these 
third-party laboratories are doing their job correctly and are 
not filing either false claims or just not doing their work in 
a competent manner.
    The system will ensure Americans that the products coming 
from China and other countries meet consumer product safety 
standards and do not contain lead, phthalates, or other----
    Senator Vitter. Right.
    Ms. Tenenbaum.--toxic chemicals.
    Senator Vitter. Mr. Chairman, can I ask one last, brief 
question?
    And, Ms. Tenenbaum, you can give the answer for the record, 
because I don't want to hold everything up.
    I strongly believe that one of the problems is that in the 
past there has not been enough common work and coordination 
among multiple involved agencies, like the International Trade 
Commission, Customs, USTR, and your soon-to-be agency, working 
together for a practical result.
    For instance, in this Chinese drywall situation, at the end 
of the day, if the only action is some sort of class-action 
suit against some shell entity in China, which is really some 
arm of the Chinese government, that goes into litigation and 
takes years and years more, that's not a solution. That's not a 
good result. That's maybe making some lawyers busy and/or rich, 
but it's not helping the victims.
    Really, what has to happen is for this to be a priority of 
the U.S. Government, including USTR, CPSC, and everybody who 
deals regularly with China, to get a practical resolution, and 
have the victims reimbursed in a whole and a quick way.
    And I just ask, for the record, your responses to that 
idea, and how would you work toward that sort of practical, 
bottom-line result.
    Senator Vitter. Thank you very much.
    Ms. Tenenbaum. Well, thank you Senator, that is an 
excellent question, and I'm glad you brought that up.
    The CPSC is opening an office in China, but the Commission 
needs to coordinate, and not duplicate, its efforts by working 
with other agencies and sharing resources.
    Senator Vitter. Thanks.
    Ms. Tenenbaum. If I am confirmed, I look forward to meeting 
with the people who direct these agencies to coordinate our 
efforts and work together more closely.
    Thank you.
    Senator Pryor. Thank you.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman and Ms. 
Tenenbaum. Great to see you. Thank you for the meeting in my 
office last week.
    Ms. Tenenbaum. Thank you.
    Senator Cantwell. And we're glad that your nomination is 
before the Committee today.
    I was wondering if I could ask you about emerging products 
that are associated with hazards. In 2007, the Commission 
established a pilot program for an early-warning system on 
emerging products and associated hazards. And my understanding 
is that that system uses subject-matter experts and electronic 
assessment tools to allow the Commission staff to quickly 
identify these issues and propose corrective action. Do you 
know whether this pilot has been successful?
    Ms. Tenenbaum. I don't, Senator Cantwell. I thank you for 
the question, but I don't have information on that. It seems 
like a common sense approach to work with the industries ahead 
of time to advise them of the regulation and the requirements 
on consumer products before they develop these products and put 
them in the stream of commerce.
    Senator Cantwell. I guess that's what I was getting at, is 
whether, in principle, that approach helps the Commission to be 
more proactive than completely reactive. And should the 
Commission be proactive when it comes to emerging safety issues 
in consumer products?
    Ms. Tenenbaum. The Commission should be proactive in 
working with industry so industry doesn't have inventory it 
cannot sell. The sooner the Commission can promulgate 
regulations and work with industry in implementing these 
regulations, the less costs would be incurred by industry in 
developing products that it later has to recall.
    Senator Cantwell. Several of the unforeseen issues the 
Commission has had to address in implementing the Consumer 
Product Safety Commission Improvement Act involve smaller 
businesses, and--do you think the Commission is well positioned 
for conducting outreach to smaller consumer product 
manufacturers? I know the Commission leverages its staff by 
using standards committees and organizations, like the 
Underwriters Lab and ANSI. But does the Commission also 
leverage its relationship with the Small Business 
Administration and other agencies within the Department of 
Commerce, like NIST and the Manufacturing Extension 
Partnership?
    Ms. Tenenbaum. Senator, I don't know the specific answer to 
that, because I haven't discussed that issue with the 
Commission staff, but the Commission needs to have a 
partnership and also regular meetings with the leaders of these 
other commissions so we don't duplicate resources in enforcing 
the same standard.
    Senator Cantwell. OK. Another issue. I know--I understand 
interested parties can submit petitions to the Commission that 
can ultimately lead to rulemaking. And to the best of my 
knowledge, those petitions have led to rulemaking. And do you 
have any sense, or any thoughts, on that, the amount of time 
that it takes or how the Commission does that as it initiates 
its own rulemaking?
    Ms. Tenenbaum. Thank you, Senator.
    I don't have firsthand knowledge about that. But, under my 
leadership, if I'm confirmed, I hope members of the general 
public, industry, consumers, and interested parties would feel 
that they could approach the Commission and make suggestions in 
rulemaking. We certainly would invite comment on proposed rules 
and take those comments very seriously.
    Senator Cantwell. I know that there's so much that the 
Commission faces, and a heavy workload. Are there any current 
activities you might consider de-emphasizing or delaying? And 
are there some of these things that are just going to get 
delayed anyway because of the level of staffing?
    Ms. Tenenbaum. Well, the staff has been cut in half over 
the last 10 years, and because of the increase in 
appropriations last year, the Commission will be able to hire 
100 additional people. Under the new law the Commission will 
have around 500 staff positions. Because of the surge of 
imports, the importance of consumer safety, and the number of 
deaths from consumer products, new staff positions are greatly 
needed.
    One of the challenges will be implementing the CPSIA in a 
timely manner and promulgating the final rules so that industry 
and consumer groups will know what is required, and eliminate 
the uncertainty surrounding this Act at this point.
    If the Commission doesn't have enough staff it can 
coordinate with other agencies. The agency does not have to do 
everything by itself if another agency has the capacity to 
assist or if the research can be performed by outsourcing.
    Senator Cantwell. Well, thank you----
    Ms. Tenenbaum. But, there are numerous agencies in the 
Federal Government that could expand the enforcement and help 
with the workload of the CPSC.
    Senator Cantwell. Well, thank you, Ms. Tenenbaum, I 
appreciate your answers, and I appreciated our meeting and your 
past experience at the State level. I think you'll bring a 
great deal of experience and leadership to the Commission. So, 
thank you.
    Ms. Tenenbaum. Thank you, Senator.
    Senator Pryor. Thank you.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you. I just wanted to stop by 
briefly and congratulate you.
    Ms. Tenenbaum. Thank you.
    Senator McCaskill. I think your nomination is such a 
wonderful development for this very, very important and 
neglected part of our government. The tenacity you have shown 
in your career, and your willingness to take on projects 
against the odds suits you very well for the challenge that 
you've accepted. And I hope that--I'm sure many of your visits 
in front of this Committee will not be as pleasant as the one 
today----
    [Laughter.]
    Senator McCaskill.--but I want to make sure that we don't 
chase you off.
    Ms. Tenenbaum. No.
    [Laughing.]
    Senator McCaskill. So, I don't want to spend a lot of time 
talking specifically about issues.
    I will say that it's very important--and I know you've 
discussed this in other questioning, and I know that your 
answers have been exactly what I was looking for--but I think 
the problem we've got with the legislation that we passed is 
the confusion and uncertainty. And you combine that with a 
failure to embrace the notion of common sense, and our phones 
ring off the hook. And--I mean, when I've got women that I 
revere that are librarians crying on the phone to me, I know 
that something is amiss, because I don't think government 
should ever make librarians cry.
    [Laughter.]
    Senator McCaskill. I just think that is a bad idea, 
generally speaking.
    So, I want to make sure that I convey to you how much I 
hope your common sense takes firm control of this situation, 
and that we quickly move toward very clear guidance, so that if 
there are any remaining issues that we need to go back and take 
a look at, that we can do so. Let me give you an opportunity to 
speak to that just briefly, if you would, Ms. Tenenbaum.
    Ms. Tenenbaum. Thank you, Senator. And I appreciate you 
being here and coming by, and I appreciate your question.
    If I'm confirmed as the Chairman of the Commission, it is 
my goal to implement the rules and the regulations, and issue 
guidance pursuant to the CPSIA as soon as possible.
    Your phones are ringing off the hook because there are so 
many unanswered questions about how certain sections of the new 
law will be interpreted and what industry is supposed to do. 
Consumer advocacy groups are concerned. Everyone needs to know 
what the roadmap's going to look like.
    In implementing legislation in South Carolina year after 
year, I have found that once comprehensive legislation of this 
nature is passed you have pushback because of unanswered 
questions. As soon as you can put in place the regulations, and 
the guidance, and answer the unanswered questions, the phone 
calls are greatly reduced. Then the agency can go about the 
business of implementing the Act. This is my goal.
    Senator McCaskill. Well, that's terrific. And I--on behalf 
of the librarians, and the great thrift-store operators, and 
the wonderful folks that hunt, with their ATVs, in Missouri, I 
thank you for that. And I look forward to a strong working 
relationship over the coming years. And I know you're going to 
be very good at this job. Congratulations.
    Ms. Tenenbaum. Thank you.
    Senator McCaskill. Thank you, Mr. Chairman.
    Senator Pryor. Thank you, Senator McCaskill.
    Let me, if I may--our vote is on, and let me just have a 
couple of follow-up questions, if I can, or follow-up 
observations.
    One of the things Senator Lautenberg talked about was, he 
had written a letter to the CPSC, and he never received a 
response. I don't know if this is true, but anecdotally I've 
heard, and I hope it's not true, that there was favoritism 
shown to Republican inquiries, as opposed to Democratic 
inquiries, and I certainly hope that wasn't the case. But I 
would definitely hope that, as long as you're Chairman, you'll 
be very politically neutral when it comes to communicating with 
House, Senate, Attorney Generals, Governors, whatever the case 
may be.
    Ms. Tenenbaum. Senator, I will. My track record as State 
Superintendent of Education was to treat all persons who wrote 
letters to the State Department, or requested me to visit 
schools, as politically neutral. I will be in the Executive 
Branch, and I want to work with everyone in the Congress, and 
throughout the Federal and State government, as best I can.
    Senator Pryor. Well, that's the way it should be.
    Let me also mention an observation. The Chinese drywall 
case is an illustration of how much easier it is to fix the 
problem before it comes into the United States. And now, with 
that Chinese drywall--that is in houses, it's ruining houses, 
and it has ruined their value. The cost to the end user, the 
homeowner, is much greater than the cost of the drywall. If we 
could have gone back a few years in time, and if we had an 
inspector there, if we had an office there--you mentioned 
that--if we had someone there to say, ``No, that cannot come in 
to the U.S.,'' just think about how many millions and millions 
of dollars people around the country would have saved.
    Another thing I want to say before I close is, I think, 
when we talk about librarians and ATVs and other matters that 
we've talked about today, thrift stores, et cetera--I think 
that what's happened--what you can see is, is--when the agency 
runs properly, it can help resolve these issues before the 
industry gets to a chaos point.
    But, I think, in the last few months, what you've seen is, 
with some actions of the agency or individuals there, or 
whatever the case may be, statements made by them, you saw 
almost a panic in a lot of sectors of our economy, with people 
not knowing what to do. And I think you've done a good job of 
addressing that today.
    So, I think that dose of common sense that people have 
talked about, and that spirit of cooperation, and working 
together to resolve this and get to a resolution that's good 
for everybody, I think that'll be a great breath of fresh air.
    Now, one last thing before I close. And that is, the 
Chairman, who is Senator Rockefeller, and Senator Hutchison, 
the Ranking Member, have asked all Senators to get their 
questions for the record in today by 6 p.m.
    That's good news for you, because that means what they are 
hoping is, we'll be able to move this nomination quicker. 
Normally, we leave the record open for a couple of weeks. But 
they would like to get the questions in today, if possible. So 
I'm just telling that so all the staff will hear.
    Senator Pryor. And, Ms. Tenenbaum, we really, really 
appreciate your interest in public service, and your 
willingness to take on this Commission. And we've enjoyed our 
time together and your responses to the questions, and thank 
you. And we look forward to working with you as you're the 
Chairwoman of the Consumer Product Safety Commission.
    With that, we'll adjourn the hearing.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    I would like to thank the Chairman and Ranking Member for holding 
today's hearing.
    The Consumer Product Safety Commission is an extremely important 
agency that oversees the safety of over 15,000 consumer products.
    If confirmed, you will take over as Chair of the Commission at a 
very challenging time.
    With the passage of the Consumer Product Safety Improvement Act of 
2008, the Commission has even greater responsibility and more demands 
on its limited resources.
    As you work to carry out this new law, you will have a great deal 
of unresolved challenges as we move forward.
    From baseball cards, to children's books, to second-hand thrift 
stores, this law has had a broad reach in terms of new testing 
requirements and lead limitations.
    I understand that some progress has been made with the current 
Commission to deal with industry-specific concerns for products that 
pose a very limited threat to children with regards to the safety of 
parts and components of these products.
    I encourage you to continue this work to achieve common sense 
outcomes for consumers and businesses alike.
    In my state of South Dakota, I know of several retailers who were 
forced to warehouse small ATVs that were intended for children under 
the age of 12.
    Not only did this cost them valuable business, but it encouraged 
parents to push the limits of what is appropriate for their kids by 
considering the purchase of a larger, adult-sized ATVs.
    If you are confirmed, I look forward to working with in you as you 
implement the Consumer Product Safety Improvement Act in a common sense 
manner that considers the true risk of certain products, [such as youth 
ATVs and children's reading books.]
    Again, I thank you for your willingness to serve and look forward 
to learning more about your thoughts on important issues facing the 
Commission.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
           to Inez M. Tenenbaum on behalf of Hon. Chris Dodd
    Question 1. Small business owners and craftspeople are concerned 
with the Commission's ability to exempt certain materials and products. 
To date, the Commission has exempted certain products, such as books 
and natural materials, from lead testing requirements because the 
materials are inherently safe and when used as intended, provide little 
or no risk of lead exposure. If confirmed, will you act quickly and 
clearly to provide guidance on other materials that are inherently 
safe, do not require lead testing, and categories of products that pose 
no lead risk if used as intended?
    Answer. I agree that the Commission needs to act to provide 
guidance on other materials that meet the statutory criteria for 
exemption from the lead limits imposed by the CPSIA. While the 
Commission has already exempted certain products, other products may 
also qualify for a similar exemption under the CPSIA. If confirmed as 
Chairman, I will work diligently to ensure that guidance on other 
materials that may qualify for an exemption is promulgated by the 
Commission. I hope that such guidance would address the questions and 
concerns of industry, including small business owners and craftspeople.

    Question 2. Do you foresee the need to ask Congress for additional 
authority to regulate products in a common-sense manner?
    Answer. As I am not yet confirmed, it would be premature for me to 
take a position on whether the law needs to be amended. However, I do 
hope to work with all concerned parties to implement the CPSIA in a 
common-sense manner. Acting Chairman Moore has said that the Commission 
needs a third Commissioner before making decisions and recommendations 
to Congress. I agree with Acting Chairman Moore and, if confirmed as 
Chairman, I look forward to working with the other Commissioners and 
the CPSC staff to make these kinds of determinations and reporting them 
to this Committee and Congress.

    Question 3. Can you provide assurance that you will work with 
industry and trade groups to educate small businesses on how to work 
within the parameters of the CPSIA?
    Answer. I understand that there is a great deal of confusion, 
especially among small businesses, about the CPSIA and its 
requirements. If confirmed as Chairman, I will work to ensure that the 
CPSC provides guidance to help clear up this confusion and address the 
concerns of small businesses. I believe that once this guidance is 
promulgated by the Commission, many of the concerns of small businesses 
will be addressed and small business owners will be able to learn how 
to work within the parameters of the CPSIA.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Inez M. Tenenbaum
    Question 1. The Consumer Product Safety Improvement Act instructed 
the Consumer Product Safety Commission to study and develop safety 
standards for durable nursery products including cribs. If you are 
confirmed, will you work with the Consumer Product Safety Commission to 
develop a stronger standard for crib durability and require cribs to be 
durability-tested as part of these safety standards?
    Answer. If confirmed, I will see that the requirement under the 
CPSIA to take voluntary crib standards and make them mandatory is 
carried out by the Commission. Durable nursery products used to be 
governed by voluntary standards but the CPSIA requires the Commission 
to issue rules creating mandatory standards for these products. The 
development of these standards is greatly beneficial as it will also 
give the Commission enforcement authority over these products. If 
confirmed as Chairman, I will work with the Commission and the CPSC 
staff to ensure that mandatory standards which reduce the risk of 
children's injuries from these products are developed as required under 
the CPSIA, which includes the periodic review and revisions of the 
standards to ensure they meet the highest level of safety.

    Question 2. If you are confirmed, will you work with the Consumer 
Product Safety Commission to consider promulgating regulations 
requiring cribs and other durable nursery products to contain warning 
labels against the use of soft bedding?
    Answer. As I am not yet confirmed, it is premature for me to take a 
position on the specifics of any regulations concerning cribs and other 
durable nursery products that the Commission might promulgate in the 
future. However, if confirmed, I look forward to examining this issue, 
and to working with the Congress, the other Commissioners, and the CPSC 
staff to promulgate the most effective regulations for enhancing the 
safety of cribs and durable nursery products in the U.S. marketplace.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Mark L. Pryor to 
                           Inez M. Tenenbaum
    Question. Section 108 of the CPSIA requires that a chronic hazard 
advisory panel (CHAP) study the effects on children's health of all 
phthalates and phthalate alternatives as used in children's toys and 
child care articles. Can you assure me that the CHAP will be free from 
political influence?
    Answer. If confirmed as Chairman, I will work to ensure that the 
Chronic Hazard Advisory Panel conducts an impartial and de novo study 
of the phthalates and phthalate alternatives subject to the interim ban 
as required by the CPSIA. It is my understanding that the CPSC has 
already taken steps to ensure that scientists serving on this panel 
will be free from potential conflicts of interest. In the CPSC's 
February 10, 2009 letter to the President of the National Academy of 
Sciences, the CPSC requested that the Academy nominate more than 21 
qualified scientists for the panel because the nominees must be willing 
to serve on the panel and must also pass the conflict of interest 
criteria. According to the letter, in order to pass the conflict of 
interest criteria, a panel member cannot receive compensation from or 
have substantial financial interest in any manufacturer, distributor, 
or retailer of products or chemicals covered by the CHAP or be a 
Federal employee, excluding those Federal employees at the National 
Institutes of Health, the National Toxicology Program, or the National 
Center for Toxicology Research. To the extent that any additional 
measures are necessary to further ensure the impartiality of the CHAP 
and to make certain it is free from political influence, I will work 
with the other Commissioners to identify and implement such additional 
measures if confirmed as Chairman.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Inez M. Tenenbaum
    Question 1. Congress gave CPSC the authority interpret the Consumer 
Product Safety Improvement Act (CPSIA) to interpret the law's 
requirements in a common sense way to allow the agency to exempt 
certain products from lead content rules. I do not believe motorcycles, 
for example, should fall under the same lead ban that applies to 
children's toys. As CPSC Chair, will you support a flexible, common 
sense approach to interpreting the law that ensures a high level of 
consumer safety?
    Answer. If confirmed as Chairman of the CPSC, I will reasonably 
interpret the CPSIA as written by Congress in a common-sense manner 
that also ensures a high level of consumer product safety. It would be 
my goal to implement rules and regulations, and to issue guidance 
pursuant to the CPSIA, as soon as possible to address the CPSIA lead 
limits and similar concerns currently surrounding the new laws. As 
always, these rules, regulations, and guidance materials must be 
promulgated while keeping in mind that the ultimate mission of the 
agency is the protection of the American consumer.

    Question 1a. Will you address the issue raised by constituents in 
my state of motorcycles inappropriately falling under the same lead ban 
as children's toys?
    Answer. Because I am not yet confirmed, it would be premature for 
me to take a position on whether motorcycles should be exempted from 
the CPSIA lead limits. It is my understanding that the Commission has 
already stayed enforcement of the CPSIA lead limits for certain 
component parts of youth motorized vehicles until May 1, 2011. While I 
cannot yet take a position on this issue, if confirmed, I intend to 
lead the Commission in fully reviewing and addressing the 
implementation issues surrounding the CPSIA lead limits and products 
such as youth motorcycles.

    Question 2. How will you work with manufacturers, U.S. Customs and 
Border Patrol, and foreign governments to protect American children and 
consumers from unsafe imported products?
    Answer. If confirmed, protecting American children and consumers 
from unsafe and imported products will be a priority for me upon 
assuming the Chairmanship. I understand that unsafe imports are a 
significant issue currently facing the agency and, if confirmed, I hope 
to address this issue through close coordination with manufacturers, 
U.S. Customs and Border Patrol (CBP), and foreign governments. I 
understand that the CPSC staff has already prepared an Import Safety 
Strategy which outlines four overall objectives for increasing the 
safety of imported consumer products. If confirmed, I hope to carry out 
the strategies already developed by the CPSC and execute new strategies 
to enhance the safety of imported consumer goods. One new powerful tool 
granted to the Commission through the CPSIA is the change in 
presumption about how a product will be handled once it has been 
refused admission into the country because, for example, it does not 
comply with a consumer product safety rule or does not have the 
appropriate certificate of conformance. The presumption is now that the 
shipment will be destroyed. I think the Commission can use this 
powerful tool to police the marketplace, and if confirmed, I will 
pursue the use of this new enforcement power with CBP.

    Question 3. How will you work with state attorneys general to help 
ensure compliance with consumer product safety rules?
    Answer. State attorneys general and state agencies are going to be 
a great resource to the Commission and, if confirmed as Chairman, I 
hope to foster highly beneficial partnerships with them and promote 
common agendas for consumer protection. If confirmed, I would keep an 
open dialogue with state attorneys general and promote open 
communication between the Commission and their offices in order to 
ensure compliance with consumer product safety rules. In addition, I 
would also work closely with the state departments of health and 
environmental control and state consumer affairs offices to provide 
public information and education to industry and consumers to help 
ensure compliance and foster understanding of the consumer product 
safety rules.
    Question 4. CPSC and other regulatory agencies rely on consensus 
standards developed by accredited standards development organizations. 
The U.S. Code of Federal Regulations currently includes 6,000 
references to such standards, including many in critical areas 
involving health and safety.
    Although CPSC technical experts participate in standards 
development activities relevant to consumer safety, CPSC has often been 
more reluctant than other agencies to reference existing voluntary 
safety standards as mandatory requirements. Last year, Congress 
directed CPSC to reference several such standards, which are updated 
more regularly than consumer rules, in order to ensure a higher level 
of children's safety. Congress also instructed CPSC to reference 
updated versions of these standards shortly after they are revised. 
Will you encourage CPSC staff to continue to participate in standards 
development organizations that are relevant to protecting consumer 
safety?
    Answer. CPSC staff participation in standards development 
organizations is very important to protecting consumer safety and, if 
confirmed as Chairman, I will encourage the CPSC staff to continue to 
participate in these organizations. I believe such participation is 
highly beneficial to the continued education of CPSC staff and can help 
foster the development of standards which ensure the highest level of 
consumer safety.

    Question 4a. Will you consider referencing the resulting standards 
when they are consistent with the Commission's regulatory objectives?
    Answer. As I am not yet confirmed as Chairman, it would be 
premature for me to take a position on whether the Commission would 
reference these kinds of standards. In addition to the ASTM 
International Standard F963-07, the CPSIA gives the Commission the 
ability to adopt other ASTM standards if the standards would further 
reduce the risk of injury associated with children's toys. If confirmed 
as Chairman, I look forward to working with the other Commissioners and 
the CPSC staff to determine whether the remaining ASTM standards, as 
well as any other additional standards, should be adopted or referenced 
by the Commission to further enhance the safety of children's toys.

    Question 4b. Will you ensure that CPSC rules stay current with 
emerging safety threats in order to protect children and consumers from 
unsafe products?
    Answer. If confirmed as Chairman, I will work diligently to ensure 
that the CPSC rules stay current with emerging safety threats in order 
to protect American children and consumers from unsafe products. The 
Commission has a regular rule review process and I believe that 
updating Commission rules and regulations is essential to addressing 
emerging threats and acting in a proactive, rather than a reactive 
manner. If confirmed, it will be my goal to work with the Commission 
and CPSC staff to identify and address foreseeable threats before they 
become a serious danger to American consumers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Inez M. Tenenbaum
    Question 1. Just to make sure we are on the same page, I want to 
make clear that I understand precisely how Virginia drywall concerns 
will be incorporated into how CPSC will be moving forward. First, I 
understand that CPSC collected samples of corroded smoke alarms, 
corroded electrical receptacles and corroded copper tubing from homes 
constructed with Chinese drywall on June 2, 2009 in Chesapeake. My 
understanding is that CPSC will analyze those components--collected 
from Virginia homes--in controlled lab conditions to determine how the 
corrosion occurred and how the corrosion impacts the components' 
functionality--for example how the corrosion would stop a fire alarm 
from working properly. Is that correct?
    Answer. As I am not yet confirmed as Chairman and only have access 
to information available in the public domain, I can only answer this 
question to the extent that this information is currently available to 
me. According to information from the CPSC, to date, the Commission has 
received hundreds of reports of potentially defective Chinese drywall 
from residents in 19 states and the District of Columbia. Virginia is 
included in this group of states and, if confirmed as Chairman, I will 
work to ensure that this issue is addressed in Virginia as well as the 
other affected states. Regarding component testing, according to 
Commissioner Nancy Nord's letter to Senator Bill Nelson, the CPSC's 
Directorate for Engineering Sciences will be examining and testing 
components in homes that may be affected by emissions from Chinese 
drywall. Her letter goes on to list the components that will be tested 
and how the testing will be conducted. If confirmed as Chairman, I look 
forward to working with the other Commissioners and the CPSC staff to 
review this testing plan and ensure that the agency is doing all that 
it can to address the problems associated with Chinese drywall.

    Question 2. Second, I understand that the CPSC will be conducting 
an in-home air sampling study of 50 homes, and that Virginia homes will 
be a part of that study. Is that correct?
    Answer. According to Commissioner Nord's letter to Senator Bill 
Nelson, the CPSC's Directorate for Health Services is planning to 
collect air monitoring data in homes as a part of the investigation 
into Chinese drywall. As I am not yet confirmed as Chairman and only 
have access to publicly available information, I cannot definitely 
state whether Virginia homes will be a part of that study. However, if 
confirmed, I will work the CPSC staff to ensure that this and other 
studies are scientifically sound and adequately representative of all 
consumers affected by the Chinese drywall issue.

    Question 3. Third, I understand that CPSC will be conducting two 
tests using unpainted drywall from Virginia. One test will be an 
elemental analysis to determine what components the Virginia drywall 
contains. Another has been referred to as the ``chamber studies,'' 
where you will test unpainted, untainted drywall from Virginia in a 
variety of environmental situations, humidity levels, etc. The purpose 
of this test is to better understand why the Virginia drywall corrodes 
and emits gasses in a variety of situations. Is that correct?
    Answer. As I am not yet confirmed as Chairman, I am not familiar 
with the specifics of the testing that the CPSC intends to conduct in 
its investigation of the Chinese drywall issue. If confirmed, I will 
make the Chinese drywall problem a high priority and I would be happy 
to answer your questions in more detail when I have more information. 
If confirmed as Chairman, I look forward to working with the other 
Commissioners and the CPSC staff to ensure that the Commission carries 
out efficient and conclusive testing through which consumers can gain a 
thorough understanding of the problems associated with Chinese drywall.

    Question 4. When do you anticipate that these studies be done? Will 
they be publicly available so victims of this drywall problem will be 
able to easily access them?
    Answer. Completing these studies and properly informing the public 
on this issue must be a top priority. Although I do not have access to 
the CPSC timeline for the completion of these studies, I do understand 
that at least a preliminary testing timetable has been developed. If 
confirmed, I will work to ensure that the deadlines mandated by this 
timetable are met and also updated or changed as necessary to 
adequately and efficiently address the issues presented by the Chinese 
drywall problem. Since I am not yet confirmed, I cannot definitely 
state whether these tests will be publicly available. However, if 
confirmed, I will make sure that the affected consumers will be 
promptly and sufficiently informed of the important issues and 
information related to the Chinese drywall in their homes.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Inez M. Tenenbaum
    Question 1. Ms. Tenenbaum, small businesses represent nearly 99 
percent of small businesses in the United States, and as Ranking Member 
of the Committee on Small Business and Entrepreneurship, I am committed 
to limiting burdensome Federal regulations on our Nation's 
entrepreneurs.
    With that in mind, small business owners are extremely concerned 
with the Consumer Product Safety Improvement Act of 2008 (CPSIA) and 
how it is being implemented by the Consumer Product Safety Commission 
(CPSC). It is critical that the CPSC ensure that it is satisfying its 
responsibilities of protecting the public, while mitigating the 
negative impacts on small businesses.
    I am specifically concerned with the CPSC's ability to exclude 
goods deemed safe for public use from lead testing requirements. Many 
small business owners feel that their products should be excluded, but 
have yet to hear if the CPSC plans to act on additional cases. I cannot 
overstate how critical it is that CPSC expeditiously work, within the 
constraints of the law, to exclude merchandise that poses no danger to 
the public. Additionally, businesses should be made aware of the 
process which the CPSC intends to take when determining what to exempt 
from third-party testing requirements. Finally, if products are 
excluded, the decision must be presented with sufficient clarity and 
certainty for business owners to fully comprehend the legal status of 
their unique merchandise. Can you share your thoughts on this issue?
    Answer. I agree that it is of the utmost importance that the CPSC 
expeditiously work to develop guidance and make determinations of what 
products should be exempted from the CPSIA lead limits. Clear guidance 
and communication from the Commission on this issue is especially 
important for small business owners. If confirmed, it is my goal to 
make effective use of the new budget resources recently received by the 
Commission to implement rules and regulations, and to issue clear 
guidance pertaining to this issue as soon as possible. In my experience 
in South Carolina, the key to successfully implementing these kinds of 
comprehensive laws is providing those affected with regulations, rules, 
and guidance which provide them with a clear roadmap of how the 
legislation will be enforced and how to comply. If confirmed as 
Chairman, I will approach the implementation issues with the CPSIA in 
the same manner.

    Question 2. Does the CPSC have sufficient ability under the current 
statute to exempt products that do not pose a risk to children? Do you 
believe, as CPSC staff insinuated in a recent letter to Representative 
Dingell, that a legislative fix is necessary to give the CPSC 
flexibility to implement the CPSIA? If not, why do you disagree with 
the CPSC's staff position from this letter dated March 20, 2009?
    Answer. As I am not yet confirmed, it would be premature for me to 
take a position on whether the Commission has adequate flexibility, 
under the CPSIA, to exempt children's products that do not pose a risk 
to children. I know from my review of the CPSIA that there are 
currently three methods built into the CPSIA to waive the lead 
standards for certain types of children's products. These methods 
include exemptions for inaccessible component parts, lead in certain 
electronic devices, and exemption by CPSC rule where the Commission 
determines that the normal and foreseeable use and abuse of a 
children's product will not result in the absorption of any lead into 
the body.
    With regard to whether a ``legislative fix'' is necessary to give 
the CPSC flexibility to implement the CPSIA, I am not currently in a 
position to state whether I believe that Congress should amend the 
CPSIA. I do agree with Acting Chairman Moore's position that any 
request or recommendation that Congress amend the CPSIA should come 
from the Commission once there are three Commissioners. If confirmed as 
Chairman, I look forward to fully reviewing the implementation issues 
with the other Commissioners and the CPSC staff to make these kinds of 
determinations and report the Commission's ultimate findings and 
recommendations to this Committee and to Congress.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Inez M. Tenenbaum
    Question 1. With regard to the implementation of the Consumer 
Product Safety Improvement Act, do you believe the Commission has 
adequate flexibility to waive the new lead standards or testing 
requirements for certain types of children's products?
    Answer. As I am not yet confirmed, it would be premature for me to 
take a position on whether the Commission has adequate flexibility, 
under the CPSIA, to waive the new lead standards or testing 
requirements for certain types of children's products. I know from my 
review of the CPSIA that there are currently three methods built into 
the CPSIA to waive the lead standards for certain types of children's 
products. These methods include exemptions for inaccessible component 
parts, lead in certain electronic devices, and exemption by CPSC rule 
where the Commission determines that the normal and foreseeable use and 
abuse of a children's product will not result in the absorption of any 
lead into the body. I understand that there are a number of open 
rulemakings and some pending petitions involving the Commission's 
interpretation of these lead exemptions that, if I am confirmed, I will 
be asked to vote upon. In voting on these matters, in each instance the 
Commission will be addressing its ability to grant or deny certain 
requests or to grant other relief as appropriate.

    Question 2. If so, do you believe the Commission can safely and 
responsibly carry out the Consumer Product Safety Improvement Act while 
exempting certain products such as youth ATVs, which may not pose a 
significant threat in terms of lead contamination?
    Answer. While it is premature for me to state whether the CPSIA 
provides adequate flexibility to waive lead standards for certain 
children's products, I do believe that the Commission can safely and 
responsibly carry out the goals of the CPSIA if certain children's 
products were to be exempted pursuant to the provisions spelled out in 
that Act. The CPSIA gives the Commission the ability to exempt by rule 
certain children's products from the lead limits, and I believe that 
the Commission should utilize the discretion afforded to it under the 
CPSIA wisely.

    Question 3. I understand that the Commission has provided a stay of 
enforcement for certain children's products. For example, the 
Commission has provided a stay for youth ATVs through May 1, 2011. 
However, State Attorneys General still have authority to enforce this 
law, even though the Commission has issued a stay. How do you plan to 
work with States Attorneys General to ensure these offices and the 
Consumer Product Safety Commission are enforcing the same regulations? 
If the Commission were to exempt certain products from the Consumer 
Product Safety Improvement Act, would that restrict States Attorneys 
General from taking enforcement action with regards to these products?
    Answer. I hope to foster beneficial partnerships with state 
attorneys general and state agencies and promote common agendas. The 
Commission has requested that state attorneys general refrain from 
prosecuting certain types of CPSIA violations. However, you are correct 
in that the Commission cannot prohibit state attorneys generally from 
bringing a civil action to obtain appropriate injunctive relief because 
the Commission has stayed enforcement of certain requirements under the 
CPSIA. I hope that state attorneys general will honor the Commission's 
request and, if confirmed, I will do my utmost to work with them to 
ensure a cooperative approach on any issues that might arise. Also, if 
a state attorney general were to proceed with such an action, the 
attorney general is required to give the Commission 30 days notice 
before filing a complaint under the CPSIA. If the Commission was not 
already informed beforehand, I believe the CPSC would use this 30-day 
time period to try to address and fully resolve any issues with an 
attorney general pursuing such an action. With regard to Commission 
exemptions, it would be premature for me to take a position on whether 
states attorneys general are restricted from taking enforcement action 
on Commission-exempted children's products until I have had the benefit 
of consultation with the other Commissioners and the CPSC staff on this 
issue in the event that I am confirmed.

    Question 4. The Consumer Product Safety Improvement Act enacts 
several new regulations on manufacturers and retailers, such as third-
party testing, tracking labels, and new lead limitations. I understand 
there is a cost-benefit tradeoff to this law, and we all want safer 
children's products. However, the Commission should make implementation 
as cost effective as possible. As the Chair of the Consumer Product 
Safety Commission, what are three actions you will take to lower the 
cost of compliance with this new law?
    Answer. I sympathize with business owners, especially small 
business owners, who will face increased costs to comply with the 
mandates of the CPSIA. If confirmed, I will do my best to support 
workable standards and testing regimes that minimize the economic 
impact on businesses while still protecting American consumers. I do 
believe that the right balance can be struck between enforcement, 
testing, and keeping regulatory burdens at a level so as to make 
implementation effective and cost efficient. Although it would be 
premature for me to commit to specific actions I would take to ensure 
cost efficiency, I can assure you that, if confirmed, I will: (1) 
examine cost-effective alternatives, such as component based testing, 
already recommended to the Commission by industry and small businesses; 
(2) seek out ideas for other ways to lower the cost of compliance; and 
(3) work with this Committee, the Congress, and industry and small 
businesses on this issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Roger Wicker to 
                           Inez M. Tenenbaum
    Question 1. By law, the Consumer Product Safety Commission has 
broad authority over products in the U.S. marketplace. As a protection 
against undue influence, the Consumer Product Safety Act includes 
prohibitions on a Commissioner holding stocks or bonds of substantial 
value in an entity engaged in business before the Commission. I 
recognize your attempts to reconcile your financial interests with the 
requirements of the law. Given the breadth of the Commission's 
jurisdiction, will you please review your financial interests to ensure 
no inherent conflict of interest will exist upon your confirmation?
    Answer. In connection with the nomination process, I have consulted 
with the Office of Government Ethics and the CPSC's designated agency 
ethics official to identify potential conflicts of interest. If I am 
confirmed as Chairman, any potential conflicts of interest that arise 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Commission's designated agency ethics 
official and that has been provided to the Committee.

    Question 2. Will you also commit to recuse yourself from any and 
all proceedings that may come before the Commission as a result of any 
financial conflict that may arise during your tenure?
    Answer. If confirmed as Chairman, whenever a potential conflict of 
interest arises, I will consult with the agency's designated ethics 
official and recuse myself when appropriate.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                           Inez M. Tenenbaum
    Question 1. When Congress considered the CPSIA, it not only took 
into account prior studies that the CPSC had conducted on various 
phthalates, but also recognized that not all phthalates or other 
plasticizers are equal and treated them distinctively. Therefore, 
Section 108 of the bill permanently bans three low-molecular-weight 
phthalates from their use in children's products and childcare 
articles.
    Congress also recognized the health and safety distinctions of the 
high-molecular-weight phthalates, diisononyl phthalate (DINP), 
diisodecyl phthalate (DIDP), and di-n-octyl phthalate (DnOP). For 
these, Congress passed a narrower, temporary prohibition that is 
similar to action previously taken by the CPSC involving a voluntary 
prohibition of the use of DINP in pacifiers, rattles, and teethers. 
After scientific review through the establishment of an independent 
Chronic Hazard Advisory Panel (CHAP), the CPSC concluded in 2003 that 
there was ``no demonstrated health risk'' associated with the use of 
DINP in children's toys or childcare articles.
    Under the requirements of the CPSIA, DINP will be studied again, 
but the bill also requires that an independent team of scientists study 
not only DINP and other high-molecular-weight phthalates but also the 
alternatives to these phthalates. The overall goal is to determine the 
safety of all plasticizers in children's products. Clearly, the intent 
of Congress is that a scientific process, unfettered by political 
influence, should determine the safety of plasticizers used in toys. 
The study will provide the basis for a final Federal regulation on the 
use of plasticizers in children's products. Therefore, it is critical 
that we move forward quickly because manufacturers will use other 
plasticizers that have not been nearly tested at the level that DINP 
has been tested.
    Given the level and amount of assessments that have been done on 
certain phthalates and the relative paucity of studies of alternatives 
to phthalates or other high-molecular-weight phthalates, will you work 
to expedite consideration of the CHAP and issue a final regulation on 
what plasticizers are safe?
    Answer. If confirmed as Chairman, I will work to ensure that the 
Chronic Hazard Advisory Panel's study will be performed in an impartial 
manner and within the time table established by the CPSIA. It is my 
understanding that the process of assembling this panel's membership is 
already underway. After the panel is assembled, it is required to 
complete its examination within 18 months under the CPSIA. The panel is 
then required to report its findings to the Commission after 180 days 
and the Commission must make a final determination on what phthalates, 
if any, should be permanently banned by rule within 180 days after 
receiving the panel's report. If confirmed as Chairman, I will work 
with the panel and the Commission to ensure the study is impartial and 
performed as expeditiously as possible within the deadlines mandated by 
Congress in the CPSIA.

    Question 2. In 2007, in the case involving a children's toy 
product, a manufacturer substituted a particular untested and unproven 
chemical in the manufacturing process. The end result was that the 
product, when ingested, operated similarly to the ``date rape'' drug, 
GHB, and the illness and hospitalization of some children who ingested 
the beads led to a massive recall. What can the Commission do to ensure 
that we are not similarly substituting chemicals that have already been 
tested with others that have not been fully assessed for safety during 
the duration of this temporary prohibition?
    Answer. The responsibility of testing and fully assessing the 
safety of these chemicals ultimately lies with the individual 
manufacturers of these products. I understand this concern though and, 
if confirmed as Chairman, I will work with the other Commissioners and 
the CPSC staff to determine what proactive measures the Commission can 
take, aside from enforcement after the fact, to prevent occurrences 
similar to the Aqua Dots episode during the interim prohibition.

                                  <all>

</pre></body></html>
